  OFFICE OF
 INSPECTOR GENERAL
U.S. Department of
Transportation




Semiannual
Report to
Congress

 April 1 – September 30, 2004
semiannual

 report to

 congress

            April 1–September 30, 2004




Office of Inspector General ■ U.S. Department of Transportation
               c o n t e n t s 

From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page v
Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 1
Audits, Investigations, Testimony

     April . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 8
     May . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 9
     June . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 13
     July . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 18
     August . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 19
     September . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 23
     Top DOT Management Challenges and Emerging Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .page 33
     Volpe National Transportation System Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .page 37
Other Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 39
Charts & Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 43
     Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 43
     Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 44
     Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 45
     Application of Investigative Project Hours by Operating Administration . . . . . . . . . . . . . . . . . . . . . .Page 45
     Application of Investigative Project Hours by Priority Area                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 46

     Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 46
     OIG Reports with Recommendations That Questioned Costs                                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 47
     OIG Reports with Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . .Page 47
     OIG Reports Recommending Changes for Safety, Economy, or Efficiency                                             . . . . . . . . . . . . . . . . . . . .Page 48
     Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 48
     Office of Inspector General Published Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 49
     Office of Inspector General Congressional Testimonies                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 52

     Status of Unresolved Recommendations Over Six Months Old . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 52
     Application of Audit Project Hours by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 54

Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 55
Mission, Organization, & Contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 64
Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 67

                                                                                                                                                                        iii
        from the 

i n s p e c t or g e n e r a l 


I
      am pleased to provide OIG’s Semiannual Report to Congress for the six-
      month period ending September 30, 2004. I want to thank Secretary
      Mineta, former Deputy Secretary Van Tine, our modal administrators,
and Members and staff of Congress for their responsiveness to our recom-
mendations to strengthen safety, improve program delivery, and maximize
efficiency.

   In November, we issued our annual review of the top management chal-
lenges facing the Department. A summary of that report, along with high-
lights from other audits, investigations, and congressional testimony present-
ed during the report period, can be found inside.

   Our focus in the coming months will be on several significant issues, among
them: FAA budget, financing, and trust revenue fund shortfalls; multi-billion
dollar Air Traffic Control (ATC) modernization projects; controller retire-
ments; Amtrak; rail safety; oversight of large transit and highway infrastructure
projects; commercial drivers' license fraud; and opportunities for achieving
Department-wide cost savings through better management of contracts and
grants.

  Over the last six months, our investigative work resulted in 93 convictions
and more than $25 million in fines, restitutions, civil penalties and recoveries.
We also issued 61 audit reports, testified 7 times before Congress and made
more than $431 million in financial recommendations that questioned costs
and suggested how funds could be put to better use.




                                                                                    v
vi   Semiannual Report to Congress
  WORK PLANNED                                                                           

                          A N           D I N 

                  P       RO            G RES S 



D
            uring this reporting period, the Office of Inspector General will continue to
            focus on the Department’s key strategic goals to improve safety, capacity, and
            efficiency. We will review the cost and schedules of major acquisitions pro-
grams in FAA; safety oversight of the changing aviation industry; and human resources
issues, such as staffing in FHWA and FAA. We will ensure thorough financial report-
ing and accounting practices throughout the Department and review information sys-
tem acquisitions and security. We will continue to monitor the progress of major high-
way and transit projects, assess programs to improve motor carrier safety, and evaluate
activities to improve public transit and passenger rail security.
   OIG has developed the following work plan for the period of October 1, 2004,
through March 31, 2005.

                               Aviation Audits
■ Review of FAA’s Terminal Automation Alternatives.
  Identify the modernization needs of FAA’s small, medium, and large ter-

  minal sites and consider the alternatives available to FAA to meet those

  needs.


■ Safety Oversight of an Air Carrier Industry in Transition.
  Determine whether: (1) action taken by FAA to monitor financially dis-

  tressed air carriers is effective; (2) the Air Transportation Oversight

  System (ATOS) and the Safety Performance Analysis System (SPAS) have

  been used effectively to monitor financially distressed carriers by provid-

  ing the data and tools inspectors need to conduct their work; (3) FAA has effec-

  tively implemented procedures to heighten surveillance of low-cost air carriers dur-

  ing periods of growth or change; and (4) FAA’s risk-based surveillance system is

  used effectively to target identified risk areas, and to aid FAA in the allocation of

  inspector resources for low-cost air carriers.


■ National Airspace Redesign.
  Determine: (1) if FAA has an effective process to control costs, mitigate risks, and

  coordinate local, regional, and Headquarters efforts; and (2) whether or not oppor-

  tunities exist for FAA to make airspace redesign efforts more cost-effective.


                                                                          Wo r k P l a n n e d a n d i n P r o g r e s s 1
                           ■ Air Carriers Use of Non-Certified Repair Facilities.
                             Determine: (1) how FAA identifies and oversees work performed at non-certificat-
                             ed repair facilities; (2) how FAA requirements for non-certificated facilities differ
                             from those for certificated repair stations; and (3) the quantity and type of work air
                             carriers outsource to non-certificated repair facilities.

                           ■ Validation of the STARS Phase I Program Costs.
                             Review and validate the life cycle cost studies and other relevant analyses provided
                             to FAA’s Joint Resources Council to justify and re-baseline Phase I of the STARS
                             program.

                           ■ En Route Automation Modernization (ERAM) Program.
                             Determine whether FAA has a realistic and executable plan to provide a new en route
                             automation system on time and within budget; identify the key program risks that
                             could affect FAA’s ability to meet cost and schedule projections; and determine
                             whether FAA has adequately addressed computer security in the ERAM system
                             design.

                           ■ FAA Staffing and Training for Flight Standards Inspectors.
                             Evaluate staffing and training issues that may impact FAA’s ability to provide effec-
                             tive oversight of an aviation industry in transition.

                           ■ Advanced Technology and Oceanic Procedures (ATOP) II.
                             Compare FAA’s experience in acquiring an oceanic system to the experiences of
                             other major oceanic air traffic control service providers. Review cost, schedule, and
                             performance specifications and the operating environment (complexity and volume
                             of airspace) the systems were designed to accommodate.

                           ■ Oversight of Aircraft Manufacturers’ Quality Assurance System for Suppliers.
                             Evaluate FAA’s oversight of aircraft manufacturers’ quality assurance system for
                             domestic and foreign suppliers.

                           ■ Status of FAA’s Major Acquisitions.
                             Update the cost and schedule of FAA’s major acquisitions, and identify key issues
                             affecting their implementation.

                           ■ Controller Staffing Issues.
                             Report on FAA’s current process for determining staffing levels at individual facili-
                             ties and evaluate FAA’s plans to correct staffing imbalances. Report on FAA’s
                             progress toward implementation of a labor distribution system and review any pilot
                             programs developed to better measure controller productivity. Lastly, evaluate
                             FAA’s air traffic controller staffing plan that Congress mandated be provided annu-
                             ally starting in December 2004.

2   Semiannual Report to Congress
                Financial and Information Technology Audits
■ Use of Contract Audit Services — DOT Operating Administrations.
  Determine whether DOT and its Operating Administrations are obtaining contract

  audit services, as necessary, and in accordance with policies, procedures, and acqui-

  sition regulations.


■ FY 2005 OCIO Budget Request for Enhancing Security, E-Government Services, and
  Investment.
  Determine: (1) whether the Office of Chief Information Officer (OCIO) and

  Operating Administration budget requests for IT security, E-Government services,

  and IT investment management contain duplicative or overlapping items; (2) the

  extent to which the budget requests were adequately planned and coordinated by

  the OCIO; and (3) progress made to improve IT security, E-Government services,

  and IT investment management. 


■ Consolidation of DOT Accounting Functions.
  Determine the extent to which DOT would achieve financial and operational bene-

  fits by consolidating its accounting functions.


■ DOT FY 2004 Financial Statements.
  Determine whether principal DOT financial statements and accompanying notes

  are presented fairly, in all material respects, in conformity with U.S. generally

  accepted accounting principles; assess internal controls over financial reporting,

  including safeguarding assets; report identified instances of non-compliance with

  selected laws and regulations that could have a direct and material effect on the

  DOT financial statements or that have been specified by the Office of

  Management and Budget; determine whether DOT’s financial management sys-

  tems substantially comply with the Federal Financial Management Improvement

  Act; assess whether financial information in the Management Discussion and

  Analysis is materially consistent with the information in the principal DOT finan-

  cial statements; assess whether internal controls ensured the existence and com-

  pleteness of reported data supporting performance measures; and determine

  whether supplementary and stewardship information is consistent with manage-

  ment representations and the DOT financial statements.


■ FAA Maintenance Processing System Security and Controls.
  Determine whether the computer systems used by FAA technicians to maintain field

  surveillance, navigation, and communications equipment are adequately secured to

  ensure the integrity and availability of air traffic controls operations. 





                                                                        Wo r k P l a n n e d a n d i n P r o g r e s s 3
                           ■ Inactive Obligations, FAA.
                             Determine whether FAA’s inactive obligations represent valid financial liabilities or
                             can be used on other capital projects.

                           ■ 2004 Status Assessments of Cost Accounting System and Practices, FAA.
                             Review the status of the FAA’s cost accounting system and results, to date, on spe-
                             cific assessment areas required by AIR-21 as of December 31, 2004.

                                                   Surface and Maritime Programs
                           ■ Follow-Up Audit of the Implementation of the NAFTA Cross-Border Trucking Provisions.
                              Verify whether FMCSA has the staff, facilities, equipment, and procedures in place
                           to comply with the provisions in Section 350 of the FY 2002 Appropriations Act.

                                          ■ FHWA’s Program Oversight of State Transportation Management
                                             Processes.
                                            Determine whether FHWA implemented a risk assessment process
                                            that reliably assessed the risks associated with states’ implementation
                                            of the Federal-aid highway program.

                                          ■ Office of Vehicle Safety Compliance.
                                            Determine: (1) whether NHTSA is timely processing petitions,
                                            assigning eligibility numbers, and handling hardship exemptions for
                                            military personnel and other individuals; and (2) the reasons that
                                            importers may be experiencing delays in obtaining approval to
                                            import a vehicle.

                                          ■ Oversight and Workforce Strategic Issues in the Federal Highway
                                             Administration.
                                          Obtain employee views on current work activities, how their future
                                          workload is expected to change, and the workforce discipline and tools
                                          needed to perform program and project oversight activities.

                           ■ FHWA’s Fiscal Management Information System.
                             Determine whether FHWA’s investment proposal for FMIS adequately addressed
                             project data shortfalls.

                           ■ Federal Highway Administration’s Cost Recovery Actions.
                             Evaluate FHWA’s oversight of states’ processes and procedures for controlling,
                             identifying, and tracking errors and/or omissions on major projects, and the
                             progress made by FHWA and the states in recovering costs resulting from design
                             errors and/or omissions.



4   Semiannual Report to Congress
■ Highway-Rail Grade Crossing Inspections, Accident Reporting, and Investigations.
  Assess the adequacy of the Federal Railroad Administration’s oversight of highway-

  rail grade crossing safety inspections, accident reporting requirements, and accident

  investigation procedures.


■ Central Artery/Tunnel Project 2004 Finance Plan.
  Determine whether the 2004 Finance Plan: (1) presents a cost estimate that is based

  on all known and reasonably expected costs; (2) identifies appropriate and available

  funding sources sufficient to meet the total estimated cost; (3) provides a project

  construction schedule that is based on all known and reasonably anticipated delays;

  and (4) discloses other issues affecting the project.


■ Safety of Highway Bridges.
  Evaluate whether: (1) structurally deficient bridges on the National

  Highway System have been inspected in accordance with National

  Bridge Inspection Standards; and (2) FHWA’s oversight is effective

  to address the deficiencies on these bridges.


■ Major Project Cost-Estimating Activities.
  Determine frequent factors that cause cost estimates to be unreli-

  able; evaluate efforts to improve cost-estimating guidance; and

  identify opportunities to improve oversight of project-sponsored

  processes and procedures for preparing credible cost estimates.


■ Oversight of the Use of Alcohol-Impaired Driving Highway Traffic
  Safety Funds.
  Determine whether NHTSA’s oversight is adequate to: (1) ensure that states

  applied alcohol-impaired driving highway traffic safety funds for intended purpos-

  es and in compliance with Federal requirements; and (2) assess how unused alco-

  hol-related fund balances will be accounted for as TEA-21 expires.


■ Motor Carrier Safety Program.
  Assess the FMCSA progress in: (1) implementing the OIG’s recommendations from

  the April 1999 audit report; (2) implementing the MCSIA requirements on new

  entrant motor carriers; and (3) issuing rulemakings required by the MCSIA.


                      Competition and Economic Analysis
■ 2003 and 2004 Amtrak Assessment.
  Summarize Amtrak’s 2003 and 2004 financial and operating results.




                                                                      Wo r k P l a n n e d a n d i n P r o g r e s s   5
                           ■ Review of Designated High-Speed Rail Corridors.
                             Assess status of each of the designated corridors, focusing on demand studies per-
                             formed to date, expense projections, estimated capital requirements, and proposed
                             implementation schedules.

                           ■ Evaluation of Amtrak’s 5-Year Capital Plan.
                             Determine how Amtrak prioritizes capital projects and if cost projections for select-
                             ed projects are reasonable. Also, update Amtrak’s financial status.

                           ■ Assessment of Amtrak’s Route Structure.
                             Analyze alternative route structures to determine the potential for reducing Federal
                             funding while improving opportunities for increased ridership.

                           ■ Financing the Aviation System.
                             Examine the financing structure (taxes, fees, and prices) supporting the operation of
                             and investment in the airway system in the United States, and assess whether a dif-
                             ferent funding model could produce more efficient operation of the airway system
                             while also providing better information to direct investment.

                                       Hazardous Material, Security, and Special Programs
                           ■ FAA’s Hazardous Materials Program.
                             Assess whether FAA’s execution of its HAZMAT Program was adequate to ensure
                             industry’s compliance with HAZMAT regulations. To do this, we focused our audit
                             on FAA’s: (1) administration of HAZMAT enforcement cases; (2) efforts to ensure
                             that HAZMAT regulations address the unique environment for shipments of HAZ-
                             MAT by air; and (3) efforts to prevent unauthorized HAZMAT from being carried
                             on board passenger aircraft.

                           ■ Chicago O’Hare Modernization Plan.
                             Assess: (1) the status of FAA’s work to date on the Chicago O’Hare Interaction
                             Airport Modernization Plan (OMP); (2) FAA’s efforts in redesigning the airspace to
                             accommodate the OMP; and (3) FAA’s role in ensuring that the manner in which
                             Chicago proposes funding the OMP is fully documented and supported, and that
                             the funds are available and secure.

                           ■ Security of Public Transit and Passenger Rail Operations.
                             Assess: (1) DOT’s roles and responsibilities with respect to security of the Nation’s
                             public transit and passenger rail systems; (2) DOT’s efforts to collaborate and coor-
                             dinate with the Department of Homeland Security on public transit and passenger




6   Semiannual Report to Congress
  rail security rulemaking, oversight, and enforcement; and (3) the extent and

  effectiveness of DOT funding for securing the public transit and passenger

  rail system.


■ Management of Land Acquired Under Airport Noise Compatibility Programs.
  Determine if FAA oversight ensures that airport sponsors properly sell or

  lease land that was purchased for noise compatibility (noise land) but is not

  needed for airport development or aviation-related purposes


■ Background Security Investigations of DOT Government and Contract
  Employees.
  Determine: (1) whether DOT government and contractor employees have

  undergone background investigations that are appropriate to the position

  that they hold; (2) how promptly background investigations of government

  and contractor employees are completed; (3) the status and adequacy of

  departmental systems for tracking background investigations; and (4)

  whether DOT uses the investigative results of other Federal agencies in

  assessing the backgrounds of current and potential government and contract

  employees.


■ Physical Security of FAA Facilities.
  Evaluate the: (1) security processes and standards that are applied to

  FAA facilities; (2) access controls to FAA’s staffed and unstaffed

  National Airspace System critical facilities; and (3) security at staffed

  FAA facilities to ensure that contract security company employees meet

  FAA’s requirements for security training and weapons qualifications.


■ Rulemaking Process and Tracking System.
  Update DOT’s progress in managing its rulemaking process and in meeting

  its deadlines.





                                                                     Wo r k P l a n n e d a n d i n P r o g r e s s 7
                                                     Audits and Investigations



                                             Activities


                                    Florida Man Jailed for Piloting Plane without an Airman Certificate
                                    April 12
                                       Donald Wilson of St. Cloud, Florida was sentenced to a 15-month prison
                                    term by a U.S. District Court judge in Fort Lauderdale, Florida, for piloting a
                                    plane without a legitimate airman certificate and flying an aircraft with an unap-
                                    proved modification to its fuel system. Wilson used various fraudulent identi-
                                    ties in order to obtain FAA licenses and falsely register an aircraft. He also
                                    modified a plane by installing fuel-tank systems without making the change
                                    according to FAA maintenance regulations. The case was investigated with
                                    assistance from the FAA, Department of Homeland Security -Immigration and
                                    Customs Enforcement, and the Ft. Lauderdale Police Department.

                                    Key Issues for the Federal Aviation Administration’s FY 2005 Budget
                                    April 22
                                       The Office of Inspector General testified before the Senate Transportation-
                                    Treasury Appropriations Subcommittee regarding the Federal Aviation
                                    Administration’s (FAA) fiscal year (FY) 2005 budget request of $14 billion
                                    and other aviation issues. We discussed key issues and ways to control costs
                                    within the Agency’s Operations, Facilities and Equipment and Airport
                                    Improvement Program (AIP) accounts. These issues focused on, among other
                                    things, getting reliable cost and schedule baselines for billion-dollar acquisi-
                                    tions, addressing the pending wave of controller retirements, and providing
                                    effective safety oversight of an airline industry in transition. OIG also stated
                                    that with domestic traffic levels showing an upward trend and revenue pas-
                                    senger emplanements declining, FAA must position itself to meet this
                                    increased demand.

                                                      OIG Testifies on FTA’s “New Starts”
                                                    Evaluation Process Before House Panel
                                    April 28
                                       We testified regarding the Federal Transit Administration’s (FTA) “New
                                    Starts” criteria before the U.S. House of Representatives Transportation-

8   Semiannual Report to Congress
Treasury Appropriations Subcommittee. The testimony stated that funds avail-
able for New Starts projects over the next 6 years can support only a fraction
of the 26 projects with existing full funding grant agreements and another 38
projects in preliminary engineering, final design, or that have been proposed
for funding. These projects are collectively seeking $24.3 billion in Federal
funding. OIG also testified that: (1) FTA provides guidance to local authori-
ties to assist them in conducting the alternatives analysis but does not approve
the selection of the locally preferred alternatives; (2) there have been changes
to the New Starts evaluation process since FY 1998, but there is still room for
improvement; (3) FTA has improved its ability to identify problems with rid-
ership forecasts — the single most critical element supporting project justifica-
tion — but without more reliable and up-to-date ridership analyses, project jus-
tification will continue to be problematic; and (4) resolution of problems in
estimating highway congestion relief will be difficult to achieve without a joint
effort by the Federal Highway Administration (FHWA) and FTA to under-
stand the extent to which transit provides highway congestion relief.

       Connecticut Man Gets 46 Months in Jail for Smuggling
           Undeclared Ammonia on Commercial Flight
April 29
   Bernard Williams of Norwalk, Conneticut, was sentenced to 46 months in
prison and was fined $7,500 by a U.S. District Court judge in Brooklyn, New
York, for violating federal hazardous materials transportation regulations by
shipping two undeclared cartons of highly concentrated ammonia on a com-
mercial flight on February 15, 2002. Williams declared that the two cardboard
boxes, which he checked on a flight from Fort Myers, Florida, to New York
City, contained kitty litter, when they in fact held 14 gallons of ammonia.
During the flight, one of the gallon bottles broke, causing 28 passengers to
become ill; one infant passenger lost consciousness and had to be hospitalized.


           Colonial Pipeline Company Fined $400,000 for 

                     Tennessee Pipeline Rupture

May 4
   Following a five-year investigation, Colonial Pipeline Company, based in
Atlanta, Georgia, pleaded guilty to a charge of violating the Rivers and
Harbors/Refuse Act as a result of a February 1999 rupture of one of its
pipelines that spilled an estimated 1,275 barrels of diesel fuel into the
Tennessee River. The company was ordered to pay $400,000 in penalties,
including a $50,000 fine and $350,000 to be used for environmental educa-
tion, protection, and incident response. The rupture caused diesel fuel to spew
into the air, and onto nearby houses before it flowed down a hillside and then

                                                                                    Audits and Investigations   9
                                                      Audits and Investigations



                                              Activities

                                     sequentially into Goose Creek, Fort Loudoun Lake, and the Tennessee River.
                                     The investigation was conducted by a task force composed of the DOT-OIG,
                                     the Department of Energy, the Department of Defense-Defense Criminal
                                     Investigative Services, Federal Bureau of Investigation, Enviromental
                                     Protection Agency, and the Tennessee River Valley Authority.

                                         Airport Lease Broker Sentenced to Over Six Years for Fraud
                                     May 4
                                        Alfred Speckmann (aka Fred Herman), was sentenced by a U.S. District
                                     Court judge in Wilmington, Deleware to 78 months incarceration and ordered
                                     to pay $207,314 in restitution after pleading guilty to three counts of mail
                                     fraud for selling leased aircraft without the owners’ consent, and keeping the
                                     proceeds. Speckmann pleaded guilty in November 2003 to submitting false
                                     bills of sale and aircraft registration documents to FAA. He received the max-
                                     imum sentence due in part to his extensive criminal history, which included sev-
                                     eral felony convictions for consumer fraud, embezzlement, and passing bad
                                     checks. The FAA has taken steps to insure that FAA Aircraft Registry records
                                     reflect the aircrafts’ proper owners. The investigation was conducted with the
                                     assistance of FAA.

                                                IG Report on Destruction of 9–11 Audiotape of
                                                   Air Traffic Controller Witness Statements
                                     May 4
                                        In response to a request from Senator John McCain, chairman of the
                                     Committee on Commerce, Science, and Transportation, we investigated alle-
                                     gations that FAA officials destroyed an audiotape of air traffic controller wit-
                                     ness statements created the morning of the 9–11 terrorist attacks. We found
                                     that five air traffic controllers who communicated with two of the hijacked air-
                                     craft on 9-11 made a previously undisclosed audiotape account of their actions
                                     that morning. The tape, made at the direction of a manager at the New York
                                     Air Route Traffic Control Center, was supposed to provide law enforcement
                                     with information until the controllers could write statements. No one outside


10   Semiannual Report to Congress
the center was told the tape existed, and it was subsequently destroyed by
another center manager. OIG’s investigation did not find the managers
attempted a cover-up, and we have no indication there was anything on the
tape that the managers were hiding or that the controllers did not properly
carry out their duties on 9-11. We recommended that FAA implement proce-
dures establishing an evidence-custody system for aircraft accidents and inci-
dents, review the conduct of the two managers in question, and take appropri-
ate administrative action.

      MARAD’s Cargo-Preference Billing and Payment Process
May 5
   The Office of Management and Budget and officials from the Maritime
Administration (MARAD) requested that OIG review a cargo preference dis-
pute between the U. S. Department of Agriculture's (USDA) Commodity
Credit Corporation and MARAD over a $379 million invoice from USDA.
MARAD is required to reimburse USDA for excess ocean freight costs that
food assistance programs incur to comply with cargo preference statutes.
However, MARAD has not made a payment for excess ocean freight since
1995, when it paid $35 million due for FY 1992. In part, delays were due to
an antiquated manual billing and payment process, but delays primarily reflect
a fundamental dispute between USDA and MARAD over calculating the
amount of excess ocean freight owed. OIG recommended that MARAD
immediately pay $164 million of the $379 million invoice for FYs 1994
through 2000. We also recommended that MARAD, USDA, and the U.S.
Agency for International Development reexamine the billing and payment
process to identify ways to accelerate it. MARAD officials agreed with our rec-
ommendations.

                 Tulsa Airport Authority’s Management, 

                 Operations, and Use of Airport Funds 

May 6
    We issued our investigative report regarding contracting irregularities, con-
flicts of interest, and other issues at the Tulsa Airports, undertaken in response
to a request from Senator James M. Inhofe, Chairman of the Committee on
Environment and Public Works. The investigation found instances where the
Tulsa Airport Authority’s procurements of professional services, which were
funded by the Airport Improvement Program, did not adhere to FAA’s
required competitive-selection procedures. We also found conflicts of interest
on the part of former authority officials, poor recordkeeping by the Authority,
and a lack of sufficient oversight by FAA.
    The audit report issued on the same day found that the airport entered into


                                                                                     A u d i t s a n d I n v e s t i g a t i o n s 11
                                                       Audits and Investigations



                                               Activities

                                     an agreement that may require it to purchase property used as collateral in a
                                     loan to Great Plains Airlines. As a party to this real estate transaction—under
                                     which it was obligated to pay off the loan in case of default—the airport
                                     appeared to be subsidizing the airline. In addition, use of airport funds to pay
                                     off the loan would constitute a diversion of airport revenue or could result in
                                     inappropriate use of monies collected from passenger facility charges. FAA
                                     agreed that the real estate transaction constituted a direct subsidy to the airline
                                     and was therefore prohibited. FAA also agreed to take actions to ensure the
                                     airport did not inappropriately use passenger facility charges or airport revenue
                                     to pay off the loan.

                                                     Short- and Long-Term Efforts To Mitigate
                                                           Flight Delays and Congestion
                                     May 18
                                        OIG testified before the Senate Commerce Aviation Subcommittee regard-
                                                   ing FAA’s preparations to avoid flight delays and ease congestion
                                                   beginning in the summer of 2004. The testimony focused on cur-
                                                   rent traffic and delay conditions, the changing reasons for conges-
                                                   tion, FAA’s action in the past 4 years, and the outlook for the
                                                   summer of 2004. We stated that increasing flight delays are par-
                                                   tially caused by the increased use of regional jets, the expansion of
                                     low-cost air carriers, and waiting times at airport security lines.
                                        In the testimony and in formal recommendations to the Department of
                                     Transportation and FAA in June, OIG recommended that the Secretary, the
                                     Bureau of Transportation Statistics, and the Transportation Security
                                     Administration (TSA) work together to develop and report monthly airport-
                                     specific waiting time metrics for both peak and off-peak hours. We also rec-
                                     ommended that FAA issue updated capacity benchmarks for major airports as
                                     soon as possible. FAA’s original benchmarks were issued in 2001 in response
                                     to a 2000 OIG recommendation and measured the maximum traffic an airport
                                     could handle under varying weather conditions.




12   Semiannual Report to Congress
                Former FAA Employee Ordered to Repay 

               $350,000 in Workers Compensation Fraud

May 20
   Michael Lee Harms was ordered by a U.S. District Court judge in Dallas,
Texas, to serve 33 months in prison, and to pay $354,389 in restitution for
fraudulently collecting workers compensation after injuring his
back in 1996 while employed as an air traffic control specialist for
the FAA. He was convicted of mail fraud and making false state-
ments to the Department of Labor (DOL) in Februrary 2004.
While collecting workers compensation, Harms was employed as
a pilot for two air freight companies and served as President and
CEO of Amber Aviation, a non-profit organization. FAA and the
DOL-OIG assisted with this investigation.

 Opportunities To Improve FAA’s Process for Placing and Training

     Air Traffic Controllers in Light of Pending Retirements

June 2
   We issued our report on FAA’s progress for placing and training air traffic
controllers, as attrition in the air traffic controller workforce is expected to rise
sharply over the next 9 years. We found that while FAA’s nationwide estimates
of expected controller attrition are reasonable, FAA needs to develop attrition
estimates by location. We also found that FAA needs to assess newly hired con-
trollers’ abilities before they are placed and improve its overall oversight and
management of the on-the-job training process. We recommended that FAA:
(1) establish a system to uniformly estimate controller attrition by location and
adjust national attrition and hiring strategies as needed; (2) develop an assess-
ment process for identifying a new controller’s potential to certify at a certain
facility and use this information in placing newly hired controllers; and (3)
compile national statistics and establish a baseline to better manage the con-
troller on-the-job training process and include these statistics in developing a
tracking system for training. FAA concurred with our recommendations.

               Guilty Plea in Motor Fuel Tax Evasion Case
June 3
   Thomas W. Quintin of Cherry Hill Village, Colorado, pled guilty in U.S.
District Court in Denver to 98 counts of mail fraud and 15 counts of tax eva-
sion for failing to pay more than $7.5 million in Federal motor fuel excise taxes.
Quintin operated two wholesale motor fuel distribution companies, Max Oil,
Inc. and Pit Stops of America, Inc., licensed to purchase fuel tax-free from ter-
minal suppliers. Quintin also owned about 20 retail truck stops in Colorado,


                                                                                        A u d i t s a n d I n v e s t i g a t i o n s 13
                                                      Audits and Investigations



                                               Activities

                                     Nebraska, and Wyoming which then received the fuel and sold it to the motor-
                                     ing public at prices which included state and federal excise taxes. The loss to
                                     the three states is believed to be more than $10 million in unpaid taxes.
                                     Quintin’s wife, Sandra J. Westphal, who faces similar charges, is in Canada
                                     awaiting extradition.

                                                 Report on the October 2003 Finance Plan for
                                                    Boston’s Central Artery/Tunnel Project
                                     June 4
                                        Our audit of the Central Artery/Tunnel Project’s October 2003 finance
                                              plan found that the Project’s schedule for completing its two remaining
                                              segments by November 2005 was reasonable. We also found that the
                                              plan discloses milestone dates that take into account potential risks
                                              based on the Project’s past history of delays, fairly represents the
                                              Project’s cost, identifies adequate funding, and accurately presents cash
                                              flow. We recommended that FHWA ensure that the Massachusetts
                                              Turnpike Authority: (1) in developing the 2004 finance plan, establish
                                              and use a process for documenting the reasons for amounts assessed
                                              and budgeted for unresolved contractor claims; and (2) develop a more
                                     realistic milestone date for completing the cost recovery process and include
                                     the revised date in its next quarterly report to FHWA.

                                                   CDL Applicants Should Provide Evidence of
                                                      Legal Presence in the United States
                                     June 10
                                        We issued a management advisory to the Deputy Secretary recommending
                                     that additional measures be considered to strengthen controls for obtaining a
                                     commercial driver’s license (CDL). We expressed concern that vulnerabilities
                                     exist within the current CDL program, which allows persons to obtain a
                                     license without being legally present in the United States. Under DOT reg-
                                     ulations, commercial drivers applying for a CDL without a hazardous materi-
                                     al endorsement are only required to provide a Social Security number, which

14   Semiannual Report to Congress
does not ensure the applicant’s citizenship or legal presence. Since nearly 70
percent of the 11 million CDLs issued since 1989 do not carry a hazardous
materials endorsement, this represents a very large loophole. In a 2002 audit,
we recommended that the Federal Motor Carrier Safety Administration
(FMCSA) require that all CDL applicants demonstrate U.S. citizenship or
legal presence. While FMCSA agreed with our recommendation, the issuance
of this proposed rule is not scheduled until May 2005. We recommend that
FMCSA, at a minimum, require all CDL applicants to demonstrate that they
are either a U.S. citizen, a permanent legal resident, or are otherwise legally
present in the United States.

      Actions Taken and Needed For Improving Pipeline Safety
June 14
   Our report, required by the Pipeline Safety Improvement Act of 2002,
found that the Research and Special Programs Administration’s (RSPA) Office
of Pipeline Safety (OPS) is making considerable progress in issuing regulations
required by congressional mandates in 1992, 1996, and 2002, as well as
responding to recommendations by the National Transportation Safety Board
(NTSB). While OPS has made progress in improving pipeline safety, the work
is not done. The current situation is far from an “end state” for ensuring the
safety of the nation’s pipeline system.
   We recommended that OPS: (1) complete its actions on remaining con-
                                                                                         While OPS has made
gressional mandates and NTSB recommendations; (2) require operators of nat-
ural gas distribution pipelines to implement some form of enhanced safety pro-
                                                                                       progress in improving
gram similar to those used by hazardous liquid and natural gas transmission
lines; (3) complete its web-based system for monitoring the cost, schedule, and
                                                                                           pipeline safety, the
performance of research and development projects; (4) finalize and implement
best practices for its internal review process; (5) implement a formal policy and
                                                                                            work is not done.
procedures for responding to NTSB recommendations so that key safety rec-
ommendations are addressed quickly; and (6) petition the Department to for-
malize the security roles and responsibilities of OPS and TSA.
   We testified before three congressional committees regarding OIG’s newly
released report: (1) on June 15, 2004 before the Senate Committee on
Commerce, Science, and Transportation; (2) on June 16, 2004 before the
House Transportation Subcommittee on Highways, Transit, and Pipeline; and
(3) on July 20, 2004 before the House Energy and Commerce Subcommittee
on Energy and Air Quality.

                      Air Traffic Controller Attrition
June 15
  We testified before the U.S. House of Representatives Transportation and


                                                                                    A u d i t s a n d I n v e s t i g a t i o n s 15
                                                       Audits and Investigations



                                               Activities


                                                        Infrastructure Subcommittee on Aviation regarding the air
                                                        traffic controller workforce, with particular emphasis on
                                                        expected air traffic controller retirements, training of new
                                                        controllers, assessing how many controllers are needed, and
                                                        where they should be placed. Because controllers hired after
                                                        the 1981 Professional Air Traffic Controllers Organization
                                                        strike will become eligible for retirement in upcoming years,
                                                        attrition in the air traffic controller workforce is expected to
                                                        rise sharply. As a result, FAA will have to begin hiring and
                                                        training controllers at levels the Agency has not experienced
                                                        since the early 1980s.
                                                           OIG recommended that when addressing the increase in
                                                        controller attrition, FAA should focus its efforts on: (1) devel-
                                                        oping better attrition estimates by location, (2) assessing
                                     newly hired controllers’ abilities before they are placed at facilities, and (3)
                                     determining ways to reduce the time and costs associated with on-the-job train-
                                     ing while still achieving results. The testimony was based on an OIG audit
                                     report, which was issued on June 2, 2004.

                                           Audit of the Highway-Rail Grade Crossing Safety Program
                                     June 16
                                        We found that the Department made progress toward accomplishing its
                                     1994 Action Plan goal of fewer than 2,500 grade crossing accidents and 300
                                     fatalities at the end of 2003. Under this plan, the number of grade crossing acci-
                                     dents declined by 41 percent, from 4,892 to 2,909, and fatalities fell by 48 per-
                                     cent, from 626 to 325. Much of this progress was largely attributable to
                                     addressing the “low-hanging fruit,” that is, the Department’s initiatives to close
                                     grade crossings and to install automatic gates and flashing lights at those public
                                     crossings with a high probability for accidents. To achieve further improve-
                                     ments, the Department must adopt a more targeted approach that focuses on
                                     those states and public crossings that continue to have the most accidents.
                                        We recommended that the Department, in implementing its new Action Plan
                                     for grade crossing safety: (1) require the states that continue to have the most

16   Semiannual Report to Congress
accidents to develop individual action plans; (2) encourage states
to enhance educational programs and develop legislation to fur-
ther improve safety; (3) encourage states to set annual goals for
closing crossings; (4) promote mandatory reporting require-
ments for railroads and states to improve the accuracy and com-
pleteness of national crossing inventory data; (5) include rail tran-
sit accidents in the new Action Plan’s goals and statistics; and (6)
ensure that states submit annual evaluation reports on expendi-
tures of Federal safety improvement funds. The Department con-
curred with all of our recommendations, and agreed to take cor-
rective actions.

             Former Airline Pilot Sentenced for Submitting 

                      False Medical Certificates

June 27
   Reza Ostaldali of Forest Hill, Maryland, was sentenced by a U.S. District
Court judge in Baltimore, Maryland, to one year probation following his guilty
plea on May 7 for presenting false medical certifications to the FAA on five sep-
arate occasions. The FAA requires airline pilots to periodically submit a med-
ical certificate of examinations by a physician. Ostadali certified that a physi-
cian examined him on five occasions between April 2000 and August 2002,
when in fact the doctor last examined him in October 1996.

           Follow-Up Audit of DOT Government Travel Card 

                   Delinquencies and Charge-Offs

June 29
   In this follow-up to our August 2003 report, we found that the
Department is making progress in reducing the number of delinquent and
charged-off travel card accounts. However, proper follow-through and imple-
mentation of travel card policies is needed, since delinquencies and charge-offs
continue to occur. We recommended that the Department: (1) continue
actions to promptly implement salary offsets and split travel reimbursements
to address delinquent and charged-off accounts of current employees and rec-
oncile DOT employees identified with charged-off accounts to Citibank
records; (2) work with the General Services Administration to identify meth-
ods to recoup charged-off amounts from former employees, especially those
who are still Federal employees; and (3) ensure Operating Administrations
comply with departmental policy to discipline employees who are delinquent
in paying their bills or have charged-off accounts. The Department concurred
with our findings and recommendations.



                                                                                    A u d i t s a n d I n v e s t i g a t i o n s 17
                                                      Audits and Investigations



                                               Activities


                                       Investment Review Board’s Deliberations on the Motor Carrier
                                                Management Information System (MCMIS)
                                     June 29
                                        We found that FMCSA’s budget justifications for the Motor Carrier
                                     Management Information System (MCMIS) provided an incomplete picture of
                                     the data quality issues associated with the system and did not adequately sup-
                                     port cost estimates. We recommended that future MCMIS funding requests
                                     and briefings to the DOT Investment Review Board (IRB) identify the scope
                                     and success of FMCSA’s actions to ensure that complete and accurate data are
                                     used in MCMIS. In conjunction with the departmental Chief Information
                                     Officer, FMCSA should implement guidance for developing and validating
                                     information technology funding requests and provide supportable estimates for
                                     the MCMIS life-cycle costs. Without improved information, neither FMCSA
                                     nor the IRB can make informed decisions about continued funding for
                                     MCMIS operations and enhancements to the system.

                                         Former FAA Employee Sentenced in Travel Card Abuse Case
                                     July 1
                                        Former FAA employee Charles M. Frederickson was sentenced by a U.S.
                                     District Court judge in Seattle, Washington to pay $7,231 in restitution and
                                     serve three years probation for failing to pay off his government credit card
                                     when he left his job as a program specialist at FAA’s regional office in Renton,
                                     Washington. On April 6, Fredericksen pleaded guilty to one misdemeanor
                                     count of converting property, which included using the travel card to pay for
                                     hotels associated with personal travel and to make cash advances for personal
                                     business.




18   Semiannual Report to Congress
         Contractor and Owner Ordered to Pay $1.5 Million in 

              Connection with Fraudulent Claim Scheme

July 7
   White Construction Company of Chiefland, Florida, and owner/CEO
Luther M. White Jr. were sentenced to 30 years probation, barred from doing
business with the Florida Department of Transportation (F-DOT) for 30 years,
and ordered to pay a total of $1.5 million in restitution and fees. The compa-
ny had pleaded guilty to six counts of grand theft and Luther White, Jr. plead-
ed guilty to one count of grand theft in connection with false claims made to F-
DOT for work completed on Federal-aid highway construction projects on
Interstate 75 near Ocala, Florida from 1994 through 1997. White Construction
Company filed more than $30 million in false claims, in some cases double and
triple-billing for labor, equipment, and material costs. The case was investigated
jointly with the Florida DOT OIG and the Florida Department of Law
Enforcement.

           Former FAA Employee Fined in Travel Fraud Case
July 16
   Former FAA employee Daniel Baussan was ordered by a U.S. District Court
judge in Alexandria, Virginia, to pay $4,332 in restitution and a $1,000 fine fol-
lowing his May 13 guilty plea to charges of government property theft. Baussan
submitted three travel vouchers claiming reimbursement for temporary quarters
subsistence expenses for four family members who did not reside with Baussan.
Bausman resigned from FAA in June 2004 prior to formal termination.

      Corporate President Sentenced for False Certification of 

               Air Supply Cylinders for Firefighters

August 5
   Greg Austin, president of Austin & Pruitt Fire & Safety Equipment (A&P)
in Wilmington, Deleware, was placed on probation by a U.S. District Court
judge in Wilmington following his May 4 guilty plea to charges of making false
statements regarding the testing of about 2,000 high-pressure compressed-gas
cylinders. Austin’s business is authorized by the Department to conduct visu-
al and hydrostatic retests of high-pressure cylinders, such as fire extinguishers
and firefighter air-packs. After an unannounced inspection in September 2000,
the firm was asked to recall and retest 81 cylinders. Austin subsequently
informed Department officials that about 64 of the 81 cylinders had been
recalled and retested. However, investigators found 30 cylinders at fire depart-
ments that had not been retested. Firefighters count on certifications that their
equipment is properly functioning and safe. Separately, A&P was fined $22,185


                                                                                     A u d i t s a n d I n v e s t i g a t i o n s 19
                                                       Audits and Investigations



                                              Activities

                                     by the federal Pipeline and Hazardous Materials Safety Administration in con-
                                     nection with this case. The company has paid the fine. The case was investigat-
                                     ed by OIG and PHMSA.

                                            FAA’s En Route Center Computer Security and Controls
                                     August 9
                                         We found that security over FAA’s en route air traffic control computer sys-
                                      tem operations needs to be improved. FAA relies on computer systems
                                      deployed to 20 en route centers to direct high-altitude air traffic (above
                                      18,000 feet) over the United States. We recommended that FAA: (1) enhance
                                      system, physical, and network access security; (2) reduce risks of en route serv-
                                     ice disruptions; (3) strengthen its overall contingency planning; and (4)
                                     improve the security review process for air traffic control computer systems.
                                     FAA concurred with our findings and is taking corrective actions that, when
                                     fully implemented, will enhance the integrity and availability of en route com-
                                     puter system operations. These corrective actions are in various stages of
                                     implementation.

                                       Airline Industry Metrics Update Evaluates System Performance
                                     August 10
                                        We issued our sixth in a series of periodic updates to our airline industry met-
                                     rics report, which were developed to help FAA and the Department monitor
                                     airline industry trends. We found that network carriers’ financial troubles per-
                                     sisted in the first half of 2004 — despite efforts to reduce costs — and reflect-
                                     ed a weakened environment in revenues and airfares. Although delays in June
                                     2004 were 11 percent below their peak in 2000, they were 58 percent greater
                                     than June 2003. We also found that the growth of low-cost carriers is driving
                                     the rebound in passenger traffic.




20   Semiannual Report to Congress
          Former Logan Air Traffic Controller Sentenced for 

             Lying on Airman’s Medical Certificate About 

                   ‘Operating Under the Influence’ 

August 11
   Ronald M. Hatch II, an FAA air traffic controller at Logan International
Airport, was sentenced in U.S. District Court in Boston to two years probation,
and ordered to undergo substance abuse counseling and pay a total of $1,000
for making false statements on his airman’s medical certification form. After an
arrest for driving under the influence of alcohol in March 2003 (his fourth
offense), a review of Hatch’s personnel file found that documents in the file
were false in that he had failed to disclose a past arrest, criminal convictions, and
driver’s license suspensions related to driving under the influence. Extensive
OIG investigative effort, including research of his undeclared history of con-
victions in two states and driving records over 12 to 15 years; interviews with
several senior FAA personnel; and testimony provided at the suppresion hear-
ing culminated in a two-day jury trial. Hatch was convicted by a federal jury
in May 2004 on the false statements charges, and his FAA employment was ter-
minated in August 2004.

      Three More Plead Guilty in a $10 Million Fraud Scheme

                   Using Bogus Money Orders

August 17
   Cesi Aquia El Binyamiyn Bey, Patricia Crisp, and Crystal Wooten pleaded
guilty in U.S. District Court in Camden, New Jersey, to charges of attempt-
ing to defraud the U.S. Transportation and Treasury Departments of nearly
$10 million. The three defendants are among nine persons indicted in May
2003 with attempting to defraud DOT and various other parties for over $10
million by fabricating money orders that appeared to be issued legitimately
by either the Department of Transportation or Department of Treasury. Five
others of the nine charged in the case were convicted in July 2004 following
a jury trial and await sentencing. The 25-count indictment alleged that
between May 2000 and December 2001, the defendants used a commercial
printer to create 2,150 fictitious money orders worth $50 million and
charges the suspects with passing about $10 million. DOT suffered no mon-
etary loss, but some creditors accepting the money orders lost over $91,000.
The defendants claimed to be members of the Al Moroccan Empire, or
‘Moors’ — a separatist movement asserting that it is not subject to the laws
of the United States. The investigation is being conducted by the OIG, the
FBI, and the U.S. Secret Service.




                                                                                        A u d i t s a n d I n v e s t i g a t i o n s 21
                                                      Audits and Investigations



                                              Activities


                                         Two Pyrotechnic Corporations and Three Company Officers
                                          Fined a Combined $88,000 in Fatal Plant Explosion Case
                                     August 20
                                        Pyro Products, Inc., Grubville, Missouri, and its sister company, Next FX,
                                     Inc., Columbus, Montana, were fined $70,000 and $10,000 respectively by a
                                     U.S. District Court judge in St. Louis, Missouri for violating hazardous mate-
                                     rials transportation regulations related to a fatal fireworks manufacturing plant
                                     explosion in November 1999 which killed 2 employees and seriously injured 5
                                     others. Pyro officers Ronald R. Walker and Kim J. Walker each received 13
                                     months in prison and $3,000 in fines following their May guilty plea to charges
                                     of conspiring to illegally transport hazardous wastes, and illegal storage of
                                     explosives. Russell R. Nickel, former vice president of Next FX, was fined
                                     $2,000 and ordered to serve two months in prison following his guilty plea for
                                     making false statements to OSHA. The case was investigated jointly with the
                                     Bureau of Alcohol, Tobacco, Firearms, and Explosives, and the Missouri State
                                     Fire Marshal’s Office.

                                               Aircraft Parts Distributor Sentenced in Suspected
                                                         Unapproved Parts (SUPs) Case
                                     August 20
                                        Ralph Cooper, owner of Cooper Industries, Fort Lauderdale, Florida, was
                                     sentenced by a U.S. District Court judge in Ft. Lauderdale to 30 months in jail
                                     and ordered to pay $56,000 in restitution stemming from his June 1, 2004,
                                     guilty plea to the charge of making a materially false statement concerning an
                                     aircraft part. Cooper acquired plain encased seals, commonly known as “O”
                                     rings, from an unapproved source and then sold them to the Department of
                                     Defense (DoD), falsely certifying that they were from approved DoD manu-
                                     facturers, when in fact they were not. The “O” rings are commonly used in
                                     various military helicopters, including the UH60 Blackhawk, which operates in
                                     Iraq and Afghanistan. This investigation was conducted jointly with DoD-
                                     DCIS, NASA-OIG, DHS-ICE, and the USAF-OSI.



22   Semiannual Report to Congress
                  South Florida Moving Fraud Update
September 2
   The reporting period saw extensive legal action on the March 2003 indict-
ment of 74 persons and 16 companies accused of extorting large sums of
money from 970 household goods moving customers.
   The moving fraud schemes under investigation involved apparent low-ball
estimates given by moving company representatives with subsequent signifi-
cantly inflated charges (sometimes two to three times the original estimate)
made after the goods had been picked up. Associated hardships alleged by cus-
tomers/victims included:

 ■ Insistence of company representatives on receipt of cash.
 ■ Significant delays (e.g., several months) in making final delivery of the

   goods — often after failing to deliver on multiple dates established. 

 ■ Damaged and missing goods.
 ■ Extremely poor company responsiveness to customer queries — to the

   point of company representatives using abusive language and issuing threats

   to the customers.

  As of September 30th, 50 people have pleaded guilty or been convicted and
have been ordered to pay more than $4 million in fines and restitution. For
example:
 ■ On September 2, Yair Malol, owner of Apollo Van Lines, Plantation,

   Florida, and Jennifer Tafuri Vaknin, secretary and claims processor, were

   convicted in U.S. District Court, Miami, Florida, on multiple counts of

   conspiracy and extortion.

 ■ Shalat Baruch, a sales representative for All Points USA Relocation

   System (All Points), Pembroke Pines, Florida, was ordered by a U.S.

   District Court judge in Fort Lauderdale, Florida, on May 20 to serve 84

   months in prison, and to pay $415,801 in restitution to defrauded cus-

   tomers. On May 5, an All Points foreman/driver was sentenced to 63

   months in prison and ordered to pay $212,000 in restitution, while an All

   Points sales representative received a five-year prison term and was

   ordered to pay $451,292 in restitution. 

 ■ On May 6th, Anat Ben-Zion, owner of Southeastern Van Lines, North

   Miami, Florida, was sentenced by a U.S. District Court judge in Miami to

   20 months in prison for her role in defrauding customers of her household

   goods moving company. When Ben-Zion completes her prison term, she

   will be released to immigration officials for possible deportation to Israel. 


   The investigations were handled jointly with the FBI and with assistance
from FMCSA.




                                                                                 A u d i t s a n d I n v e s t i g a t i o n s 23
                                                       Audits and Investigations



                                              Activities


                                               FAA’s Actions To Address Allegations of Leave and
                                                       Overtime Abuse at Five Locations
                                     September 9
                                        Our audit found that FAA managers adequately addressed allegations that
                                     employees at five facilities were manipulating work schedules, sick leave, and
                                     annual leave to increase overtime payments. The managers addressed this by
                                     making an extra effort to collect the data needed to identify possible cases of
                                     abuse. However, that process is extremely labor-intensive, and it is uncertain
                                     whether managers throughout FAA are putting forth similar efforts. We also
                                     found that management implemented policies and procedures, where appro-
                                     priate, to prevent future occurrences. For example, managers created stronger
                                     controls over leave and overtime usage by limiting the authority of Controllers-
                                     in-Charge to approve overtime, schedule changes, or credit hours.
                                        To ensure that FAA has Agency-wide tools for meeting those needs, we rec-
                                     ommended that FAA identify the information that managers will need to mon-
                                     itor overtime and leave usage, determine whether the labor distribution system
                                     will capture the information identified, and modify the system as needed to
                                     ensure the appropriate information is captured and reported.

                                                 Missouri Trucking Company Fined $74,000 for
                                                  Hours of Service and Environmental Crimes
                                     September 10
                                        Voss Transportation, Inc., of Cuba, Missouri, its owner, David Voss, and
                                     Merry Robinson, a company dispatcher, were sentenced in U.S. District Court
                                     in St. Louis, Missouri, on charges stemming from violations of DOT hours-of-
                                     service regulations and of the Clean Air Act. They pleaded guilty to the charges
                                     on May 25. Voss Transportation, Inc. was ordered to pay $74,000 in penalties
                                     for discharging of diesel fuel into a local stream and conspiracy to conceal
                                     excessive driving hours and illegal trips by company drivers. Voss was sentenced
                                     to two months in prison for conspiracy to make false statements. Robinson was
                                     sentenced to a $500 fine for her role in the conspiracy to conceal drivers’ exces-
                                     sive hours. OIG investigated this case with the EPA-CID and FMCSA.

24   Semiannual Report to Congress
          Controls Over the Reporting of Operational Errors
September 20
    Our audit found that operational errors have not been accurately reported at
certain FAA air traffic control facilities. An operational error occurs when an
air traffic controller allows two aircraft to come too close together in the air and
can pose very serious safety risks. FAA has established systems to alert con-
trollers and managers when aircraft get too close together in only 20 of its 524
air traffic control facilities. However, at 504 facilities, FAA relies on supervisors
and controllers to self-report when errors have occurred and does not have a
system in place to verify that this reporting process is reliable. We determined
that at facilities where operational errors are self reported, 22 percent of the
errors that occurred in FY 2003 were initially reported by outside parties and
were not identified by the facility controllers or mangers. Only 4 percent of the
errors reported at facilities that had an automatic reporting system were iden-
tified by outside parties.
    We recommended that FAA: (1) rescind provisions in its “Air Traffic Quality
Assurance Order 7210.56C” that prevent FAA from using playback tools to
identify operational errors; (2) establish internal audit procedures that require
quality assurance staff at Terminal Radar Approach Control (TRACON) and
tower facilities to review data to assess whether operational errors are being fully
reported; and (3) require air traffic evaluation staff to review and test audit
records at TRACON and tower facilities to ensure they are conducting periodic
audits. FAA concurred with our recommendations and agreed to form a work-
ing group to determine how FAA could implement better controls over oper-
ational error reporting.

     Follow-Up Audit on NHTSA’s Office of Defects Investigation
September 23
    We found that NHTSA had successfully implemented 20 of the 22
Transportation Recall Enhancement, Accountability, and Documentation
(TREAD) Act requirements and completed development of the Advanced
Retrieval (Tire, Equipment, Motor Vehicle) Information System (ARTEMIS)
in July 2004. However, the ARTEMIS development effort experienced signif-
icant cost increases and schedule delays. We also found that NHTSA had iden-
tified, but could not verify, $17.12 million in future operations and mainte-
nance costs for ARTEMIS. After we questioned how these costs were derived,
NHTSA reduced the amount to $11.46 million, thus creating an opportunity
to put $5.66 million to better use.
    In addition, we found that ARTEMIS did not have the analytical capabili-
ties originally envisioned to help point analysts toward potential safety defects
warranting further investigation. NHTSA plans to separately acquire these


                                                                                        A u d i t s a n d I n v e s t i g a t i o n s 25
                                                       Audits and Investigations



                                              Activities

                                     capabilities but had not finished defining the capabilities needed, identified the
                                     software it will purchase to analyze the early warning reporting information,
                                     outlined associated costs, or established a schedule for implementing these
                                     capabilities. Nevertheless, NHTSA now has much more information from
                                     which to identify potential safety defects. Lastly, we found that because only
                                     NHTSA will have access to the majority of the early warning reporting infor-
                                     mation, it is critical that it complete screening procedures to address congres-
                                     sional concerns expressed in September 2000 about its ability to use the data
                                     it possessed to spot trends related to failures in Firestone tires. NHTSA con-
                                     curred with our findings and recommendations.

                                              Land Acquisition and Relocation Assistance at the
                                            Seattle-Tacoma and Reno-Tahoe International Airports
                                     September 23
                                        Our audit found that airport sponsors at Seattle-Tacoma International
                                     Airport (Seattle-Tacoma) and Reno-Tahoe International Airport (Reno-
                                     Tahoe) generally acquired property and relocated occupants consistent with
                                     applicable laws and regulations. However, we questioned Reno-Tahoe’s
                                     planned use of $1.5 million in Airport Improvement Program funds to relocate
                                     several buildings located at the Steele-Nash Ranch. Prior to acquiring the
                                     ranch, FAA and Reno-Tahoe entered into a memorandum of understanding to
                                     relocate then-perceived historic buildings on the ranch to another site.
                                     However, due to vandalism and numerous internal and external alterations dur-
                                     ing the 1950s and 1960s, those buildings no longer appear to have historical
                                     significance. We recommended that FAA reassess whether it should participate
                                     in relocating the buildings, and if FAA shares our observations, the grant used
                                     to acquire the land should be closed and any unexpended funds should be
                                     made available for other Airport Improvement Program projects. FAA con-
                                     curred with our findings and recommendations.




26   Semiannual Report to Congress
  Two Contractors Plead Guilty in Wisconsin Contract Fraud Case
September 27
   The Vinton Construction Company of Manitowoc, Wisconsin, and owners
James and Michael Maples, pled guilty before a U.S. District Court judge in
Green Bay, Wisconsin, to charges of bid-rigging on approximately $100 mil-
lion in federally-funded highway contracts between 1997 and January 2004.
They were arrested as part of a Federal investigation of contract fraud in
Wisconsin. Earlier, on September 20, Streu Constuction Co., of Two Rivers,
Wisconsin, and its owners, John and Ernest Streu, pled guilty to bid-rigging
charges. The investigation revealed that the 2 companies shared pricing and
bid information which inflated the cost of the involved contracts by 10percent,
adding $2.2 million to the costs of the projects. The investigation is being con-
ducted jointly with the FBI, and U.S. Attorney’s Office for the Eastern District
of Wisconsin, with assistance from FHWA.

Implementation of QuickTime Time and Attendance System in NTSB
September 27
   The National Transportation Safety Board has not yet taken important
preparatory steps needed to successfully implement the QuickTime time and
attendance system and, as a result, is not positioned to deploy QuickTime by
its projected implementation deadline of the fourth quarter of FY 2004. We
recommended that NTSB establish a new date to implement QuickTime and
take a more aggressive posture by assigning roles, responsibilities, identifying
funds, developing an implementation plan, and completing other preparatory
steps. NTSB concurred with our recommendations.

  FAA Management and Oversight of Regionally Issued Contracts
September 28
   Our review of FAA’s oversight of regionally issued contracts found signifi-
cant weaknesses in internal controls that could make FAA susceptible to poten-
tial fraud. For example: (1) unauthorized individuals were negotiating, approv-
ing, and signing contractual agreements; (2) independent cost estimates ensur-
ing contractor bids were reasonable and complete were not done before con-
tracts were awarded; (3) completed contracts remained open for up to 4 years;
and (4) contract files lacked basic documentation critical for safeguarding the
Government’s interests. The internal control weaknesses we identified
occurred largely because there was no clear delineation of accountability for the
administration and oversight of regional contracting functions. During our
review, FAA took timely actions to address our concerns and substantially
improve its administration and oversight of regional contracts.



                                                                                    A u d i t s a n d I n v e s t i g a t i o n s 27
                                                       Audits and Investigations



                                              Activities

                                                   MARAD’s Title XI Loan Guarantee Program
                                     September 28
                                        We examined whether the Maritime Administration had implemented rec-
                                     ommendations made in our 2003 audit of the Agency’s Title XI Loan
                                     Guarantee Program. We found that MARAD has developed policies and pro-
                                     cedures that address these recommendations in a satisfactory manner. However,
                                     we found that MARAD was not sufficiently enforcing the reserve requirements
                                     established to mitigate the risks of noncompliant loans. Furthermore, the sys-
                                     tem MARAD developed to monitor the Title XI portfolio is antiquated and
                                     rudimentary. This is of considerable importance because MARAD has deter-
                                     mined that over 25 percent of its $3.6 billion portfolio is at an elevated risk of
                                     default. Consequently, we made three new recommendations to enhance man-
                                     agement of the Title XI program, and MARAD provided a written response that
                                     satisfactorily addressed the intent of the recommendations.

                                                       NTSB Information Security Program
                                     September 28
                                        We found that NTSB had not designated a Chief Information Officer to
                                     supervise the implementation of an Agency-wide information security pro-
                                     gram. Our assessment also showed the Board’s computer system firewall is rea-
                                     sonably configured to prevent unauthorized access from the Internet.
                                     However, we found that NTSB networks are vulnerable to unauthorized access
                                     by insiders—NTSB employees, contractors, and business associates.
                                     Specifically, we identified a total of 5,309 (256 high-risk, 461 medium-risk, and
                                     4,592 low-risk) vulnerabilities on 719 NTSB network computers. We recom-
                                     mended that NTSB designate a Chief Information Officer, implement an
                                     Agency-wide information security program, and strengthen NTSB network
                                     security to prevent unauthorized access by insiders.




28   Semiannual Report to Congress
                  Truck Driver Involved in Fatal Amtrak 

                   Grade Crossing Collision Sentenced 

September 28
    John R. Stokes, of Manteno, Illinois, was sentenced in Illinois State Court
to two years in prison for felony charges stemming from a March 1999 colli-
sion between a semi-trailer truck driven by Stokes and an Amtrak train near
Bourbonnais, Illinois. Eleven Amtrak passengers were killed in the collision.
Stokes was found guilty on August 11 to charges of violating maximum spec-
ified driving times and willful falsification of the driver’s records of duty status.
The case was investigated by OIG in cooperation with FMCSA, the Illinois
Attorney General’s Office, and the Illinois Police.

           Former FAA Air Traffic Controller Pleads Guilty to
          Soliciting a Minor Over the Internet While on Duty
September 28
   Shawn Patrick Barnett, a former air traffic controller, pleaded guilty in
Dakota County District Court in Hastings, Montana, to a felony charge of
solicitating a child to engage in sexual conduct. In April 2004, Barnett admit-
ted to using his personal laptop computer during work breaks at the FAA facil-
ity to solicit sex online with someone he believed was a 13-year-old girl.
Barnett was fired by FAA in June 2004. The case was jointly investigated with
the Farmington, Montana, Police Department, with assistance from FAA.

         Company President Pleads Guilty in DBE Fraud Case
September 29
   Stephen Funny, president of Fairview Contracting Corporation of Elmsford,
New York, pleaded guilty in U.S. District Court in Islip, New York, to money
laundering charges in connection with Disadvantaged Business Enterprise fraud.
Between January 2000 and December 2001, Funny said he conspired with rep-
resentatives of Perini Construction, Inc., and Walter Construction Associates,
Inc. to serve as a minority front for three New York City transportation con-
struction projects on which Walter actually performed the work. Fairview sub-
mitted fraudulent invoices for the associated labor and materials to Perini, the
prime contractor. The investigation is being conducted under a multi-agency
Federal Construction Fraud Task Force.

              Audit of the Tren Urbano Rail Transit Project
September 29
  Our audit found that the Tren Urbano Rail Transit Project in San Juan,
Puerto Rico continues to experience rising costs, schedule slippages, and con-

                                                                                        A u d i t s a n d I n v e s t i g a t i o n s 29
                                                       Audits and Investigations



                                               Activities

                                     struction quality problems. Tren Urbano was originally estimated to open in
                                     July 2001, at a cost of $1.25 billion. The projected completion date is
                                     December 2004 and the cost has risen to $2.25 billion. While 40 percent of
                                     the cost growth is due to scope changes, such as the addition of rail vehicles,
                                     the remaining 60 percent is due to rising costs, schedule slippages, and con-
                                     struction quality problems. The reliability of the current cost estimate is ques-
                                     tionable, however, given the likelihood of future claims and additional costs
                                     that may be incurred to resolve outstanding safety and performance issues.
                                        We recommended that FTA: (1) ensure that all safety-critical requirements
                                     are met before the system is opened to passenger use; (2) require the Authority
                                     to provide a full account of the payment transactions on 377 irregular change
                                     orders; (3) hold off on awarding any additional Federal funds for this project
                                     unless an amended full funding grant agreement is approved; (4) not approve
                                     the Puerto Rico Highway and Transportation Authority’s FY 2004 Finance
                                     Plan until it ensures that the plan appropriately reflects costs, expenditures, and
                                     revenue sources; and (5) designate the Authority as a “high-risk” grantee. FTA
                                     generally agreed with the findings and recommendations in the report, stating
                                     it would continue to closely oversee the project and would not amend the pro-
                                     ject’s full funding grant agreement until it was satisfied that the Authority had
                                     taken action to fully implement these recommendations.

                                                             MARAD Inactive Obligations
                                     September 30
                                        MARAD has implemented an effective program to monitor and liquidate
                                     unneeded obligations, except for its Loan Guarantee program. The number of
                                     inactive obligations has declined more than 80 percent, from 1,246 in March
                                     1999 to 212 in December 2002. However, our audit identified $24.4 million
                                     in unneeded obligations, over 99 percent ($24 million) of which belonged to
                                     MARAD’s Title XI Loan Guarantee Program. We recommended that MARAD
                                     review all open letter commitments annually and deobligate funds associated
                                     with loan commitments that are no longer needed. MARAD concurred with
                                     our recommendation.



30   Semiannual Report to Congress
                 Observations on FAA’s Controller-Pilot
                 Data Link Communications Program
September 30
   As directed by the Senate Committee on Appropriations, we examined the
reasons FAA cancelled the Controller-Pilot Data Link Communications
(CPDLC) program and what might be salvageable for future efforts. CPDLC
was expected to play an important role in FAA’s Operational Evolution Plan
for enhancing capacity and reducing delays over the next decade. We found
FAA decided to cancel the current CPDLC program due to concerns about (1)
cost growth, (2) schedule delays, and (3) the timeliness with which airlines
would equip aircraft with necessary avionics. We also found that $23 million
of the $100 million spent on the project may be salvageable for future data link
efforts. However, the problems that led to the project’s cancellation show the
need for FAA to do a better job of managing programs and setting expectations
where both Government and industry need to make investments in new sys-
tems. Accordingly, we recommended that FAA implement a process by which
FAA and industry agree on entrance and exit criteria for the execution of joint
programs, should FAA start another CPDLC.




                                                                                   A u d i t s a n d I n v e s t i g a t i o n s 31
32   Semiannual Report to Congress
         Top DOT Management Challenges


T
       he Office of Inspector General has identified 10 top management chal-
       lenges for the DOT for fiscal year (FY) 2005. In considering the items
       for this year's list, we continue to focus on the Department's key strate-
gic goals to improve transportation safety, capacity, and efficiency.

         Getting the Most Value From Investments in Highway and
                      Transit Infrastructure Projects.
  Highway Trust Fund revenues are falling short of what is needed for
important transportation projects. Therefore, it is critical that the
Department ensures infrastructure improvements are delivered on time and
within budget, while yielding the greatest benefits for their costs. Taking
these actions is imperative, as a 1-percent improvement in the efficiency
with which states managed the $700 billion investment in highway projects
over the last 6 years would have yielded an additional $7 billion for infra-
structure improvements-enough to fund 9 of 18 active major projects.

Delivering Air Traffic Control Services and Fielding New Air Traffic Control
    Equipment While Controlling Costs in a Fixed Budget Environment.
  The Federal Aviation Administration (FAA) faces challenges as funding
requirements significantly outpace revenue from aviation taxes. At the
same time, FAA's budget has increased substantially. In FY 2005, FAA's
budget is expected to exceed Trust Fund revenues by over $3 billion. Other
challenges include addressing an expected surge in controller attri-
tion, containing costs, and fielding existing modernization projects
while effectively managing a new multi-billion dollar project.

       Increasing Aviation Capacity and Mitigating Delays.
  In some markets, air traffic and delays are returning to the intol-
erable gridlock levels experienced in 2000. Delays were particular-
ly disruptive earlier last year at several key airports; one reported
a 40-percent increase in delays over the same period in 2000. The
Department is challenged to keep planned technological and
infrastructure projects on schedule while effectively relieving con-
gestion and delays in the interim and exploring market-based solutions
where increased physical capacity is not a viable alternative.

            Ensuring Safety in a Changing Aviation Environment.
  FAA and U.S. air carriers have maintained a remarkable safety record, but
FAA needs to remain vigilant in adjusting its safety oversight to the indus-
try's emerging trends, such as the rapid growth of low-cost and regional air



                                                                                    Focus   33
                                     carriers and the record-breaking monetary losses of network air carriers —
                                     at least $21.8 billion in the past 3 years. FAA must continue progress in
                                     reducing runway incursions and operational errors and in developing reli-
                                     able procedures for reporting those errors.

                                          Ensuring That Surface Safety Programs Lead to More Lives Saved.
                                       More than 40,000 people die each year on the Nation's highways and at
                                     rail crossings. The Department has set ambitious targets for reducing fatal-
                                     ity rates in the future, which means it must address issues such as seatbelt
                                     laws, SUV rollover concerns, laws against alcohol-impaired driving, vehicle
                                     defects, commercial driver's license fraud, better safety data, and safer high-
                                     way-rail grade crossings. Ensuring that these efforts bring about reductions
                                     in accidents and fatalities will require leadership by the Operating
                                     Administrations and consideration of possibly controversial solutions.

                                           Strengthening Financial Management To Protect Federal Funds.
                                       The Department has made progress in correcting longstanding financial
                                     management deficiencies, but challenges remain. These include freeing up
                                     millions of dollars in idle funds for use on active projects and exercising
                                     greater stewardship over the more than $35 billion awarded annually on
                                     highway and transit projects. The Department must also consolidate or
                                     replace fragmented financial systems to help executives improve operations.

                                                  Holding the Line on Programs Conducive to Fraud.
                                       Given today's funding demands and increasingly tight budgets, getting
                                     the most for our money by aggressively deterring fraud is of critical impor-
                                     tance. Over the past several years, our investigations point to three key pro-
                                     gram where fraud has had a particularly insidious effect on DOT's mission: (1)
                                     highway and transit infrastructure programs — we are investigating more
                                     than 135 of these fraud schemes in 37 states; (2) Commercial Driver's License
                                     programs — we have investigated and prosecuted over 75 CDL fraud
                                     schemes in 21 states; and (3) the Disadvantaged Business Enterprise (DBE)
                                     program — we are currently investigating 45 DBE fraud schemes in 19 states.
                                     The Department must remain focused on reducing fraud in these areas.

                                       Improving Cost Effectiveness of $2.7 Billion in Information Technology
                                            Investments and Continuing To Enhance Computer Security.
                                       DOT is responsible for one of the largest information technology (IT)
                                     investment portfolios among civilian agencies, investing about $2.7 billion
                                     annually in IT acquisitions and operations, many of which have experienced
                                     significant cost overruns and schedule delays. During FY 2004, DOT made
                                     strides in increasing its oversight of major IT investments, but still needs a
                                     consistent management review process. Continued improvements are also
                                     needed in the areas of computer security, especially for air traffic control
                                     systems security.   Another area needing improvement involves IT funding


34   Semiannual Report to Congress
and operations and the changing responsibilities of the Office of the Chief
Information Officer. Specifically, DOT needs to adjust the IT budget submis-
sion practice to better align resources with responsibilities and to avoid the
appearance of duplicate budget requests.

Restructuring the Intercity Passenger Rail System To Match Fiscal Capacity.
  Judging by the House and Senate marks for fiscal year (FY) 2005 for $900
million and $1.2 billion, respectively, and in view of the fact there is no
authorization for Federal funding in 2005, it seems likely that Amtrak will
receive substantially less Federal funding than its request of $1.8 billion.
DOT must continue to work with Congress to break the cycle of appropria-
tions without authorization for Amtrak and to realign the size, operations,
and governance of the system to match the levels and sources of funding
available.

 Management Attention Needed To Strengthen Oversight of Title XI Loan.
  In FY 2004, the Maritime Administration's (MARAD) con-
solidated Title XI loan guarantee portfolio was valued at
$3.6 billion, with another $1.4 billion in pending loan guar-
antee applications. MARAD has determined that over 25
percent of its portfolio is at an elevated risk of default.
Strengthened management procedures are critical to reduc-
ing the portfolio risk profile and realizing the intended ben-
efits. MARAD has worked to get satisfactory procedures in
place, but follow through and implementation are essential.
The Department will need to monitor MARAD's progress.




                                                                                 Focus   35
                                                              Emerging Issues


                                     I
                                       n addition to the 10 management challenges presented, there are three
                                       emerging issues which are overarching in nature and will require
                                       Secretarial direction or cross-modal coordination.

                                         Ensuring Transportation Funds Are Adequate To Meet Growing Needs.
                                         The highway and aviation trust funds, which are supported by passenger,
                                     fuel, and user taxes, are not generating sufficient revenue to cover antici-
                                     pated costs of transportations systems. This is partly due to changes in the
                                     aviation sectors, such as lower average base ticket prices ($109 in September
                                     2004 versus $147 in September 2000). At the same time, the costs of build-
                                     ing, operating, and maintaining transportation systems continue to rise.
                                     Options for funding the aviation shortfalls, such as paying down trust fund
                                     or tapping the General Fund, may prove increasingly difficult in the future.
                                     The Department's challenge in the next few years will be to evaluate
                                     whether the current funding methods are adequate and whether alterna-
                                     tive financing methods are feasible.

                                         Growing Interdependency Among DOT and Other Federal Agencies To
                                                  Ensure Safe, Secure, and Efficient Transportation.
                                         Federal agencies, such as DOT and the Department of Homeland Security
                                     (DHS), are increasing collaborative efforts to protect the nation's citizens,
                                     transportation infrastructure, and the environment. However, there is a
                                     lack of clearly defined roles among the Federal entities at the working level,
                                     which could lead to duplicative or conflicting efforts, ineffective intergov-
                                     ernmental relationships, depleted resources, and-most importantly-prob-
                                     lems in responding to terrorism. DOT has identified more than 100 agree-
                                     ments either existing or under development with DHS, but determining
                                     which agreements are needed will be a challenge.

                                     Meeting Human Resource Needs Given Retirements and Changing Skill Mix.
                                         DOT has made progress in its human capital initiatives, but human
                                     resources management will be a concern for many years to come. In FY 2007,
                                     about 23 percent of DOT's nationwide workforce of approximately 60,000 will
                                     be eligible to retire, including large numbers of supervisory staff. FAA attrition
                                     estimates show that nearly half of its controller workforce of 15,000 could
                                     leave between FY 2005 and FY 2012. The Department is in the early stages of
                                     addressing these issues. Although it will be a challenge to hire and retaining
                                     a sufficient quantity of quality staff, there is also an opportunity for agencies
                                     to revamp their organizations by hiring employees with the latest technical
                                     skills and knowledge and placing them where they are needed most. ■



36   Semiannual Report to Congress
            Volpe National Transportation
                   Systems Center



T
      he John A. Volpe National Transportation Systems Center (Volpe) in
      Cambridge, Massachusetts, conducts research and development
      projects, engineering and scientific support, and analytical work, on
a fee-for-service basis, in pursuit of solutions that cut across traditional
transportation modes and technical disciplines. Established in 1970,
Volpe's client base includes OST and the Department's operating adminis-
trations, other Federal agencies, State and local governments, industry,
and academia.
  Over the past 35 years, the Volpe Center has addressed major national
and international transportation issues related to safety, security, environ-
ment, mobility, and economic growth and trade. Examples of successfully
implemented projects include the Federal Aviation Administration's
Enhanced Traffic Management System (ETMS) and Safety Performance
Analysis System (SPAS), and the Federal Motor Carrier Safety Admini-
stration's SafeStat Online program.
  At the time these audits were conducted, Volpe was part of the
Department's Research and Special Programs Administration (RSPA). It
has since been transferred to the Department's newly established
Research and Innovative Technology Administration, pursuant to the
Norman Y. Mineta Research and Special Programs Improvement Act
(Public Law 108-426, November 30, 2004). Volpe Center receives no direct
appropriation from Congress; funding is through a fee-for-service struc-
ture where costs are covered by sponsor projects.
  In 2003, Representative Ernest J. Istook, Jr., Chairman of the House
Appropriations Subcommittee on Transportation and Treasury, and
Independent Agencies, requested that the OIG conduct an audit to deter-
mine: (1) how Volpe’s role and functions have changed over the years and
whether current Volpe activities meet the DOT’s needs, (2) if Volpe has the
necessary financial controls in place to assure its service fees are appropri-
ate, and (3) DOT’s role in overseeing Volpe and whether that role is ade-
quate to ensure that Volpe provides cost-effective services. In FY 2004, we
issued three reports in response to Chairman Istook’s request:

  OIG Report Number SC-2004-077, “The Role and Functions of the Volpe
National Transportation Systems Center,” August 4, 2004.




                                                                                 Focus   37
                                       OIG Report Number FI-2004-076, “Financial Controls for Cost
                                     Accounting and Billing Practices, Volpe National Transportation Systems
                                     Center,” August 4, 2004.
                                       OIG Report Number SC-2004-100, “Volpe’s Project Management
                                     Oversight,” September 30, 2004.

                                       A summary of each report’s findings follows.

                                                                 Roles and Functions
                                       We examined Volpe’s role and functions and whether it is meeting DOT’s
                                     needs.   We found that (1) Volpe’s mission and role need to be better
                                     defined, (2) Volpe’s changing customer base raises questions as to whether
                                     the Center is a DOT or a non-DOT asset; and (3) Volpe has taken on non-DOT
                                     projects and maintained capabilities in areas that currently offer greater
                                     benefits to other agencies. Based on our findings, we made several recom-
                                     mendations involving the establishment of an oversight board for Volpe.
                                     The agency concurred with our recommendations, noting that Volpe would
                                     benefit from having such a board.

                                                                  Financial Controls
                                     We reviewed whether the Center’s revenue and costs were accurately
                                     reflected in accounting records and evaluated whether Volpe’s overhead
                                     rate development and implementation, including its method of distributing
                                     overhead costs to projects, are in accordance with Federal accounting stan-
                                     dards. We found that Volpe recorded actual direct costs such as labor and
                                     acquisitions and assigned them to projects appropriately. However, we
                                     found that overhead costs were not assigned to the proper year and infor-
                                     mation provided to customers and internal users was inadequate. We rec-
                                     ommended that Volpe develop a policies and procedures manual for all
                                     managerial cost-accounting activities.

                                                           Project Management Oversight
                                       We reviewed the Volpe National Transportation Systems Center’s project
                                     management controls and whether such controls are adequate to ensure
                                     cost-effective services. We determined that (1) project agreements between
                                     Volpe and DOT customers frequently lacked well-defined requirements, (2)
                                     cost estimates were deficient for most projects, (3) project management and
                                     oversight were hampered by insufficient project status reporting, and (4)
                                     project management controls did not ensure the timely reimbursement of
                                     excess funds on inactive projects. Based on our findings, we made several
                                     recommendations aimed at improving Volpe’s and DOT’s management and
                                     oversight of departmental projects. RSPA concurred with our findings and
                                     recommendations and has initiated a comprehensive plan of action to
                                     address project management oversight deficiencies at Volpe. ■




38   Semiannual Report to Congress
    Other

Accomplishments



T
        his section extends beyond the legal reporting requirements of the Inspector
        General Act to highlight other accomplishments and contributions by Office
        of Inspector General (OIG) staff. We highlight the impact OIG has made as
we carry out our statutory responsibilities to review existing and proposed legislation
and regulations; respond to congressional and departmental requests for information;
and review policies for ways to provide economy, effectiveness, and efficiency, or to
detect and prevent fraud, waste, and abuse.

AIRPORT CAPACITY BENCHMARKS AND AIRLINE SCHEDULING
INFORMATION PUBLISHED
   As a result of OIG comments, FAA published an updated airport capacity benchmark
study, which describes the number of aircraft an airport can safety handle under various
weather conditions and the expected impact of new runways. FAA expanded the study
to include scheduling information for some of the Nation’s most active airports.

IMPROVING BUDGETING GUIDANCE
  Based on concerns raised by OIG, the Department’s Chief Information Officer
developed a new approach for reporting the developmental costs of information tech-
nology projects. This approach was proposed to the Departmental Information
Technology Investment Review Board. The Board included the approach in DOT’s
FY 2006 Information Technology Budget Guidance.

PARTICIPATION IN AGA CONFERENCE
   An OIG representative participated in two panel discussions at the Association of
Government Accountants (AGA) annual conference. The conference was attended by
1,700 Federal, State, and local Government and contractor personnel. The panel dis-
cussion topics included building information technology skills in audit shops and meet-
ing annual computer security requirements.

TRAVEL CARD MISUSES
  In response to a hotline referral resulting from our follow-up audit on DOT
Government Charge Cards (SC-2004-066), the Federal Railroad Administration
(FRA) issued a letter of reprimand to an employee for misusing his Government cred-


                                                                                Other Accomplishments   39
                            it card. In addition, Citibank had cancelled the employee’s account because of his fail-
                            ure to keep his account in good standing. The employee had used the card to make
                            unauthorized cash withdrawals in excess of $3,000. The Federal Aviation
                            Administration (FAA) also verbally reprimanded an employee for misusing her
                            Government credit card. The employee had charged $3,712 for laser eye surgery to
                            her Government travel card, which she paid back the following month. FAA advised
                            the employee that her card usage would be closely monitored and that any further
                            abuse could result in more severe disciplinary action.

                            COMPUTER SECURITY ISSUE
                               FAA issued a directive memorandum requiring field staff to immediately disable cer-
                            tain remote access devices at air traffic control radar sites after OIG staff pointed out
                            the vulnerabilities those devices caused.

                            PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY (PCIE) TASK FORCE
                              An OIG representative served on the PCIE task force to revise the Financial Audit
                            Manual (FAM). The FAM is used by every audit group that conducts financial state-
                            ment audits.

                            PREVENTING MEGA-PROJECT FRAUD
                               As part of the OIG major highway and transit infrastructure monitoring effort, we
                            queried Maryland and Virginia officials about their approach for ensuring the $2.4 bil-
                            lion Woodrow Wilson Bridge project in the Washington, DC area remained free from
                            fraud. In response, state transportation officials developed plans to formalize and
                            improve their respective proactive oversight and audit efforts. Maryland officials specif-
                            ically identified $1.6 million in the project budget to sustain their efforts, and Virginia
                            officials are exploring doing the same.

                            TITLE XI MODIFICATION
                               As a result of the DOT Credit Council raising questions regarding due diligence, a
                            maritime company made a full payment of its debt under the Maritime
                            Administration’s Title XI Loan Guarantee Program. The maritime company original-
                            ly sought a modification to its outstanding Title XI loan.

                            MOTOR FUEL TAX EVASION FRAUD
                               Responding to an estimated $1 billion lost annually in revenue to the Highway Trust
                            Fund and the need for increased stewardship of trust fund resources, OIG assisted the
                            Senate Appropriations Committee in preparing language in the FY 2005 Committee
                            Report requesting that the Secretary of the Treasury develop a strengthened motor fuel
                            tax evasion compliance and enforcement strategy. The strategy, to be developed in




40   Semiannual Report to Congress
    Other

Accomplishments


cooperation with the Secretary of Transportation, is to include a memorandum of
understanding providing DOT criminal investigators access to petroleum products tax
compliance information received by the Treasury Department. The Committee also
requested the Inspector General for Tax Administration to conduct an audit, in con-
sultation with the DOT Inspector General, evaluating prior and planned use of trust
fund monies by the Internal Revenue Service for motor fuel tax enforcement, includ-
ing monies used to develop and operate the Excise Fuel Information Reporting
System.

DETECTING IMPROPER PAYMENTS
   Based on OIG suggestions, the departmental Office of Financial Management made
changes to comply with the Improper Payments Information Act of 2002. An
approach to test the propriety of grant payments was implemented at the grantee level,
including a pilot project that required one State Highway office to test the propriety of
a statistical sample of grant payments. The pilot will be expanded to other States and
programs if justified by the results.

EN ROUTE AUTOMATION MODERNIZATION
   In hearings before the Senate Appropriations Committee, we chronicled the risks
facing FAA’s En Route Automation Modernization (ERAM) effort, which is expected
to cost $2.1 billion and span 7 years. As a result, the Senate Appropriations Conference
report encouraged FAA to take advantage of fixed price contracts for elements of
ERAM to help control costs.




                                                                                 O th haerr t A
                                                                                 C            s c c& o m
                                                                                                       T pa lbi sl he m
                                                                                                                      s e n t41s   41
42   Semiannual Report to Congress
          C          H A R T S    &
                                  &

                     TA B L E S
Summary of Performance
April 1 – September 30, 2004

Reports issued                              61

Recommendations issued                     143

Congressional testimonies                    7

Total financial recommendations   $ 431,364,970

  — that funds be better used     $ 413,280,213

  — that questioned costs         $ 18,084,757




                                                  43
                                     INVESTIGATIONS

                                     Judicial and Administrative Actions
                                     April 1 – September 30, 2004

                                     Indictments                                                                                              84
                                     Employee

                                          Terminations                                                                                         8

                                          Suspensions                                                                                          5

                                          Downgrade                                                                                            1

                                          Reprimands                                                                                           5

                                          Resignations/Retirements                                                                             9

                                          Counseling                                                                                           5
                                     Debarment/Suspension                                                                                     18

                                     Decertified                                                                                               2

                                     Federal funding terminated/reduced                                                                        2

                                     Convictions                                                                                              93
                                     Years Sentenced                                                                                          75
                                     Years Probation                                                                                        154
                                     Years Supervised Release                                                                                 98
                                     Hours of Community Service                                                                             350

                                                                               Financial Impact
                                     Fines                                                                                            $972,202
                                     Restitution/Civil Judgments                                                                   $4,143,595
                                     Federal Recoveries                                                                               $299,940
                                     Administrative Recoveries                                                                     $8,807,427
                                     State Recoveries*                                                                             $1,668,808
                                     Costs Avoided                                                                                 $9,869,213

                                     TOTAL                                                                                       $25,761,185

                                     * “Recoveries” include fines, restitution, civil judgments or settlements, and the cost of remedial actions.
                                     Federal recoveries go to the U.S. Treasury; state recoveries are retained by the states.




                                     D
                                              uring the 6-month period covered by this report, 172 cases were
                                              opened and 115 were closed, leaving a pending caseload of 632. In
                                              addition, 194 individuals/companies were referred for prosecution,
                                     115 were accepted for prosecution, and 74 were declined. As of September 30,
                                     2004, 37 cases were pending before prosecutors.



44   Semiannual Report to Congress
Profile of All Pending Investigations
As of September 30, 2004
                                                                                   Types of Cases
                                                               Contract
                                                 Number        & Grant    Employee     Aviation   Motor Carrier
                                                 of Cases       Fraud      Integrity    Safety       Safety        Hazmat     Other
Operating Administration
Bureau of Transportation Statistics                 1              1         0            0             0             0         0

Federal Aviation Administration                    242            31         80          119            0             4         8

Federal Highway Administration                     135            124        6            0             0             0         5

Federal Railroad Administration                    17              5         4            0             0             5         3

Federal Transit Administration                     38             33         3            0             0             0         2

Maritime Administration                             5              4         0            0             0             0         1

Federal Motor Carrier Safety Administration        112             2         7            0             78            18        7

Office of the Secretary                            23              7         11           0             0             0         4

Research and Special Programs Administration       44              1         2            0             0             42        0

National Highway Traffic Safety Administration     15              4         4            0             0             0         7

Totals                                             632           212        117         119             78            69       37
Percent of Total                                  100%           33%        19%         19%           12%            11%       6%




Application of Investigative Project Hours by Operating Administration
April 1 – September 30, 2004            RSPA 4%                                                                              OST 6%


                                                                                                                             NHTSA 2%


                                                             FAA 33%
                                                                                                                             FMCSA 19%




                                                                                                                             MARAD 2%

                                                            FHWA 22%
                                                                                                                             FTA 7%


                                                                                                                             FRA 5%




                                                                                          C h a r t s       &   Ta b l e s            45
Application of Investigative Project Hours by Priority Area

April 1 – September 30, 2004
                                                                                                                                    Other 12%

                                   Aviation safety 16%


                                                                                                                                    Hazardous
                                                                                                                                    materials safety 10%




                               Employee integrity 15%
                                                                                                                                    Motor carrier safety 13%




                                                                                                                                    Contract & grant fraud 37%




Percentages add to more than 100 percent due to rounding.




AUDITS
Completed OIG Reports
April 1 – September 30, 2004
(Estimated amounts*)
                                                              Number of                Number of                   Questioned     Funds to Be Put
                                                               Reports              Recommendations                  Costs         to Better Use
Type of Review
Internal Audits
— Program/Functional                                                26                        105                       $11           $413,280
— Chief Financial Officer Financial Statements                        1                          0                            0                  0

Total Internal Audits and Reports                                   27                       105                        $11          $413,280
Grant Audits
— Audits of Grantee Under Single Audit Act                          34                         38                  $18,074                      $0

Totals                                                              61                       143                   $18,085           $413,280
*The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
**There were no recommendations for unsupported costs during the reporting period.
Department of Transportation programs and operations are primarily carried out by the Department's own personnel and
recipients of Federal grants. Audits by DOT's Office of Inspector General, as a result, generally fall into two categories:
internal audits of Departmental programs and operations, and audits of grant recipients. The table above shows OIG's
results in the two categories for the 6 months covered by this report.



46                    Semiannual Report to Congress
OIG Reports with Recommendations That Questioned Costs
April 1 – September 30, 2004
(Dollars in thousands)
                                                                    Number of              Number of                 Questioned
                                                                     Reports            Recommendations                Costs
Reports
A	 For which no management decision had been made
   by the start of the reporting period                                  18                    22                     $       49,233

B	 Which were issued during the reporting period                         18                    25                     $       18,085

Total A+B	                                                              36                     47                     $ 67,318
C	 For which a management decision was made
   during the reporting period                                           12                    16                     $        8,405
   — dollar value of disallowed costs*	                                   7                     7                     $        4,313
   — dollar value of costs not disallowed**	                              8                    11                     $        4,357

D	 For which no management decision had been made
   by the end of the reporting period                                    24                    31                     $       58,912

*There were no recommendations for unsupported costs during the reporting period.
**Includes reports and recommendations where costs were both allowed and disallowed.




OIG Reports with Recommendations That Funds Be Put to Better Use
April 1 – September 30, 2004
(Dollars in thousands)
                                                            Number of               Number of             Funds to Be Put
                                                             Reports             Recommendations           to Better Use
Reports
A	 For which no management decision had been made
   by the start of the reporting period                         4                       6                  $   1,263,000
B	 Which were issued during the reporting period                7                       8                  $       413,280

Total A+B	                                                     11                      14                  $ 1,676,280

C	 For which a management decision was made
   during the reporting period                                  2                       3                  $       403,400
   — 	dollar value of recommendations
      that were agreed to by management*                        2                       3                  $       403,400
   —	 dollar value of recommendations
      that were not agreed to by management                     0                       0                  $              0
D	 For which no management decision had been
   made by the end of the reporting period                      9                      11                  $   1,272,880

*Includes reports and recommendations where costs were both allowed and disallowed.




                                                                                               C h a r t s     &     Ta b l e s        47
OIG Reports Recommending Changes for Safety, Economy, or Efficiency

April 1 – September 30, 2004
                                                       Number of             Number of
                                                        Reports           Recommendations
Reports
A For which no management decision had been
  made by the start of the reporting period                33                     102
B Which were issued during the reporting period            31                     110

Total A+B                                                  64                    212

C For which a management decision was
  made during the reporting period*                        33                     114
D For which no management decision had been
  made by the end of the reporting period*                 33                      98

*Includes reports where management both made and did not make a decision on recommendations.




Management Decisions Regarding OIG Recommendations
April 1 – September 30, 2004
(Dollars in thousands)
                                                      Number of               Number of              Questioned   Funds to Be Put
                                                       Reports             Recommendations             Costs*      to Better Use
Description
Unresolved as of 04/01/04                                  41                       130                $49,233       $1,263,000
Audits with Findings During Current Period                 48                       143                $18,085        $413,280
Total to Be Resolved                                       89                      273               $67,318       $1,676,280
Management Decisions:
— Audits Prior Period‡                                     17                        48                 $1,800              $0
— Audits Current Period‡                                   24                        85                 $6,605        $403,400
Total Resolved                                             41                      133                $8,405         $403,400
Aging of Unresolved Audits:**
— Less than 6 months old                                   27                        58                $11,480          $9,880
— 6 months–1 year                                            8                       42                 $1,061        $547,500
— 1 year–18 months                                         11                        24                $46,357        $221,000
— 18 months–2 years                                          1                          2                 $14               $0
— Over 2 years old                                           5                       14                    $0         $494,500
Unresolved as of 09/30/04                                  52                      140               $58,912       $1,272,880

*There were no recommendations for unsupported costs during this reporting period.
‡Includes reports and recommendations where costs were both allowed and disallowed.

**Considered unresolved if management decisions have not been made on all report recommendations.




48                    Semiannual Report to Congress
Office of Inspector General Reports
April 1 – September 30, 2004
   Report         Date                                        Title                                                           Focus of Report/
                                                                                                                             Recommendations
BUREAU OF TRANSPORTATION STATISTICS
Internal Audits: Program/Functional—1 report
CR–2004–066     06/17/04     Short- and Long-Term Efforts to Mitigate Flight Delays and Congestion                 Increased reporting needed on flight
                             (also listed under Office of the Secretary and Federal Aviation Administration)       capacities and checkpoint wait-times.

FEDERAL AVIATION ADMINISTRATION
Internal Audits: Program/Functional—9 reports
AV–3004–058     05/06/04     Loan Default Could Result In Misuse of Funds at Tulsa International Airport           Ensure revenues are not diverted to
                                                                                                                   pay off airline loan.
AV–2004–060     06/02/04     Opportunities to Improve FAA's Process for Placing and Training Air Traffic           Estimate controller attrition by location;
                             Controllers in Light of Pending Retirements                                           adjust attrition and hiring strategies.
CR–2004–066     06/17/04     Short- and Long-Term Efforts to Mitigate Flight Delays and Congestion                 Increased reporting needed on flight
                             (also listed under Bureau of Transportation Statistics and Office of the Secretary)   capacities and checkpoint wait-times.
FI–2004–078     08/09/04     En-Route Center Computer Security and Controls                                        Enhance the security controls of en-route
                                                                                                                   computer system operations.
AV–2004–081     09/09/04     Actions to Address Allegations of Leave and Overtime Abuse at Five Locations          Closely monitor overtime and leave usage
                                                                                                                   and ensure labor distribution system
                                                                                                                   captures key data.
AV–2004–085     09/20/04     Controls Over the Reporting of Operational Errors                                     Operational errors not fully reported;
                                                                                                                   aggressive steps needed to ensure
                                                                                                                   accurate reporting.
SC–2004–090     09/23/04     Land Acquisition and Relocation Assistance at the Seattle-Tacoma                      $10,580 questioned;
                             and Reno-Tahoe International Airports                                                 put $1,500,000 to better use.
AV–2004–094     09/28/04     FAA's Administration and Oversight of Regionally Issued Contracts                     Put $233,000 to better use.
AV–2004–101     09/30/04     Observations on FAA's Controller-Pilot Data Link Communications Program               Process needed to ensure use of agreed
                                                                                                                   upon criteria for FAA and industry joint programs.

Grant Audits: Audits of Grantee Under Single Audit Act—12 reports
QC–2004–041     04/08/04     City of Medina, Medina County, Ohio                                                   $843,004 questioned.
QC–2004–043     04/08/04     Wayne County, Michigan                                                                $3,254,135 questioned.
QC–2004–044     04/08/04     Clark County, Indiana                                                                 $101,497 questioned.
QC–2004–045     04/08/04     Erie Municipal Airport Authority, Pennsylvania                                        $480,000 questioned.
QC–2004–046     04/08/04     Colorado River Indian Tribes, Arizona                                                 $65,998 questioned.
QC–2004–047     04/08/04     County of Chautauqua, New York                                                        Improve grantee oversight.
QC–2004–049     04/08/04     City and County of Denver, Colorado                                                   $1,155,000 questioned.
QC–2004–069     06/29/04     Salt Lake City Corporation, Utah                                                      $1,199,089 questioned.
QC–2004–079     08/20/04     County of Broome, New York                                                            Improve grantee oversight.
QC–2004–082     09/10/04     Massachusetts Port Authority                                                          Improve grantee oversight.
QC–2004-083     09/14/04     Southern New Jersey Transportation Authority                                          Improve grantee oversight.
QC–2004–092     09/28/04     Los Angeles World Airports, California                                                Improve grantee oversight.

FEDERAL HIGHWAY ADMINISTRATION
Internal Audits: Program/Functional—2 reports
MH–2004–061     06/04/04     October 2003 Finance Plan for the Central Artery/Tunnel Project                       Plan fairly represents cost, funding, and
                                                                                                                   cash flow.
MH–2004–065     06/16/04     Highway-Rail Grade Crossing Safety Program (also listed under Federal                 Significant progress achieved since 1994;
                             Railroad Administration and Federal Transit Administration)                           targeted strategies needed in new plan.



                                                                                                   C h a r t s           &     Ta b l e s                  49
Office of Inspector General Published Reports (continued)

     Report       Date                                          Title                                            Focus of Report/
                                                                                                                Recommendations

Grant Audits: Audits of Grantee Under Single Audit Act—9 reports
QC–2004–048      04/08/04       State of Hawaii Department of Transportation Highways Division          Improve grantee oversight.
QC–2004–050      04/08/04       State of Alabama                                                        $148,053 questioned.
QC–2004–051      04/08/04       Michigan Department of Transportation                                   $38,000 questioned.
QC–2004–055      04/08/04       State of Rhode Island and Providence Plantations                        $2,364,154 questioned.
QC–2004–056      04/08/04       Government of Guam                                                      $369,584 questioned.
QC–2004–059      05/26/04       City of Charlotte, North Carolina                                       Improve grantee oversight.
QC–2004–070      07/20/04       State of North Carolina                                                 $328,771 questioned.
QC–2004–080      09/07/04       State of California                                                     Improve grantee oversight.
QC–2004–093      09/28/04       National Academy of Sciences, Washington, District of Columbia          Improve grantee oversight.

FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
Internal Audits: Program/Functional—1 report
MH–2004–068      06/29/04       Investment Review Board Deliberations on the Motor Carrier Management   Additional data needed to validate funding
                                Information System (also listed under Office of the Secretary)          requests and life-cycle costs.

FEDERAL RAILROAD ADMINISTRATION
Internal Audits: Program/Functional—1 report
MH–2004–065      06/16/04       Highway-Rail Grade Crossing Safety Program (also listed under Federal   Significant progress achieved since 1994;
                                Highway Administration and Federal Transit Administration)              targeted strategies needed in new plan.

Grant Audits: Audits of Grantee Under Single Audit Act—1 report
QC–2004–073      07/27/04       Alaska Railroad Corporation                                             Improve grantee oversight.

FEDERAL TRANSIT ADMINISTRATION
Internal Audits: Program/Functional—2 reports
MH–2004–065      06/16/04       Highway-Rail Grade Crossing Safety Program (also listed under Federal   Significant progress achieved since 1994;
                                Highway Administration and Federal Railroad Administration)             targeted strategies needed in new plan.
MH–2004–098      09/29/04       Tren Urbano Rail Transit Project                                        Resolve public safety, performance, and
                                                                                                        contract issues.
Grant Audits: Audits of Grantee Under Single Audit Act—12 reports
QC–2004–040      04/08/04       Richland County Transit Board, Ohio                                     $16,157 questioned.
QC–2004–042      04/08/04       Central New York Regional Transportation Authority and Subsidiaries     $55,483 questioned.
QC–2004–052      04/08/04       Indianapolis Public Transportation Corporation                          $4,379,814 questioned.
QC–2004–053      04/08/04       State of Vermont                                                        $2,975,438 questioned.
QC–2004–054      04/08/04       Regional Transit Authority, Louisiana                                   Improve grantee oversight.
QC–2004–062      06/10/04       State of Nevada                                                         $300,000 questioned.
QC–2004–072      07/27/04       Utah Transit Authority                                                  Improve grantee oversight.
QC–2004–074      07/27/04       Pioneer Valley Transit Authority, Massachusetts                         Improve grantee oversight.
QC–2004–075      07/27/04       Regional Transportation District, Denver, Colorado                      Improve grantee oversight.
QC–2004–086      09/20/04       Central Florida Regional Transportation Authority                       Improve grantee oversight.
QC–2004–087      09/20/04       Metropolitan Atlanta Rapid Transit Authority, Georgia                   Improve grantee oversight.
QC–2004–089      09/21/04       Metropolitan Transit Authority of Harris County, Texas                  Improve grantee oversight.




50              Semiannual Report to Congress
   Report         Date                                          Title                                                       Focus of Report/
                                                                                                                           Recommendations

MARITIME ADMINISTRATION
Internal Audits: Program/Functional—3 reports
FI–2004–057      05/05/04      Cargo Preference Billing and Payment Process                                      Put $379,000,000 to better use.

CR–2004–095      09/28/04      Title XI Loan Guarantee Program                                                   Enforce reserve agreements, improve 

                                                                                                                 default management, and acquire 

                                                                                                                 financial monitoring software.

FI–2004–099      09/30/04	     Inactive Obligations                                                              Put $24,400,000 to better use.


NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Internal Audits: Program/Functional—1 report
MH–2004–088      09/23/2004	   Follow-Up Audit of the Office of Defects Investigation                            Put $5,660,000 to better use.

NATIONAL TRANSPORTATION SAFETY BOARD
Internal Audits: Program/Functional—2 reports
FI–2004–091      09/27/04	     Implementation of QuickTime Time and Attendance System                            More aggressive action needed in 

                                                                                                                 implementing QuickTime.

FI–2004–097      09/28/04	     Information Security Program                                                      Implement an agencywide information 

                                                                                                                 security program.

OFFICE OF THE SECRETARY OF TRANSPORTATION
Internal Audits: Program/Functional—4 reports
CR–2004–066      06/17/04	      Short- and Long-term Efforts to Mitigate Flight Delays and Congestion             Increased reporting needed on flight

                               (also listed under Bureau of Transportation Statistics and Federal                 capacities and checkpoint wait-times.

                               Aviation Administration)
SC–2004–067      06/29/04	      Follow-up Audit on DOT Government Travel Card Delinquencies and Charge-Offs Progress made in reducing delinquencies 

                                                                                                                  and charge-offs; follow-through and 

                                                                                                                  implementation of new policies needed.

MH–2004–068      06/29/04      Investment Review Board Deliberations on the Motor Carrier Management              Additional data needed to validate funding

                               Information System (also listed under Federal Motor Carrier Safety Administration) requests and life-cycle costs.

SC–2004–071      07/23/04      Policy and Procedures for Locating Federal Offices and Facilities in Rural Areas Department in substantial compliance 

                                                                                                                  with the Rural Development Act.


Internal Audits: Chief Financial Officer Financial Statement—1 report
FI–2004–096      09/28/04	     Independent Accountant's Report on the Application of Agreed-Upon Procedures: Retirement, health benefits, and life insurance
                               Selected Personnel Related Cost Items                                         withholding and contributions fairly represented.

RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION
Internal Audits: Program/Functional—4 reports
SC–2004–064      06/14/04	     Actions Taken and Needed for Improving Pipeline Safety                            Considerable progress made in implementing
                                                                                                                 congressional safety mandates.
SC–2004–077      08/04/04	     The Role and Functions of The Volpe National Transportation Systems Center        Tighter controls and closer oversight needed
                                                                                                                 to ensure efficient use of resources.
FI–2004–076      08/04/04      Financial Controls for Cost Accounting and Billing Practices, Volpe National      Put $2,310,000 to better use.
                               Transportation Systems Center
SC–2004–100      09/30/04      Volpe's Project Management Oversight                                              Put $177,213 to better use.

SURFACE TRANSPORTATION BOARD
Internal Audits: Program/Functional—1 report
SC–2004–084      09/17/04	      Management Controls for Administrative Activities at the Surface                 Most activities in compliance with regulations
                               Transportation Board                                                              and policies; increased monitoring of leave
                                                                                                                 scheduling and travel card usage needed.


                                                                                                    C h a r t s        &    Ta b l e s                51
Office of Inspector General Congressional Testimonies
April 1 – September 30, 2004

Control No.             Date                                     Subject                                                    Before
CC-2004-038          04/22/2004      Key Issues for the Federal Aviation Administration's FY 2005 Budget       Committee on Appropriations
                                                                                                               Subcommittee on Transportation,
                                                                                                               Treasury and General Government
                                                                                                               U.S. Senate

CC-2004-021          04/28/2004      The Rating and Evaluation of New Starts Transit Systems                   Committee on Appropriations
                                                                                                               Subcommittee on Transportation,
                                                                                                               Treasury and Independent Agencies
                                                                                                               U.S. House of Representatives

CC-2004-045          05/18/2004      Short and Long-term Efforts to Mitigate Flight Delays and Congestion      Committee on Commerce, Science,
                                                                                                               and Transportation, Subcommittee
                                                                                                               on Aviation, U.S. Senate

CC-2004-055          06/15/2004      Actions Taken and Actions Needed to Improve Pipeline Safety               Committee on Commerce, Science,
                                                                                                               and Transportation, U.S. Senate

CC-2004-058          06/15/2004      Addressing Controller Attrition: Opportunities and Challenges             Committee on Transportation and
                                     Facing the Federal Aviation Administration                                Infrastructure, Subcommittee on
                                                                                                               Aviation, U.S. House of Representatives

CC-2004-061          06/16/2004      Actions Taken and Actions Needed to Improve Pipeline Safety               Committee on Transportation and
                                                                                                               Infrastructure, Subcommittee on
                                                                                                               Highways, Transit, and Pipelines,
                                                                                                               U.S. House of Representatives

CC-2004-071          07/20/2004      Progress and Challenges in Improving Pipeline Safety                      Committee on Energy and
                                                                                                               Commerce, Subcommittee on
                                                                                                               Energy and Air Quality, U.S. House
                                                                                                               of Representatives




Status of Unresolved Recommendations Over Six Months Old
                                Cited in Semiannual Report for April 1, 2000–September 30, 2000
Contract Towers: Observations on FAA's Study of                  AV-2000-079      04/12/00       Awaiting additional information from FAA
Expanding the Program

                                Cited in Semiannual Report for April 1, 2001–September 30, 2001
Compensation Issues Concerning Air Traffic                       AV-2001-064      06/15/01       Working with FAA to resolve open issues
Managers, Supervisors, and Specialists

                                  Cited in Semiannual Report for October 1, 2001–March 31, 2002
Downtown Waycross Development Authority, GA                      QC-2002-027      10/31/01       FTA working with Grantee to resolve open issues


52                 Semiannual Report to Congress
Operational and Supportability Implementation System (OASIS)      AV-2002-064   12/07/01   Working with FAA to resolve open issues

FAA's Acquisition of Aviation Weather Systems                     AV-2002-084   02/28/02   Working with FAA to resolve open issues

                                   Cited in Semiannual Report for October 1, 2002–March 31, 2003
Innovative Pavement Research Foundation                           QC-2003-035   03/31/03   FHWA working with Grantee to resolve open issues

                                  Cited in Semiannual Report for April 1, 2003–September 30, 2003
Status Report on FAA's Operational Evolution Plan                 AV-2003-048   07/23/03   Working with FAA to resolve open issues

City and County of San Francisco, CA                              QC-2003-056   09/03/03   FTA working with Grantee to resolve open issues

FAA Needs to Reevaluate STARS Costs and                           AV-2003-058   09/09/03   Working with FAA to resolve open issues
Consider Other Alternatives

State of Hawaii, Department of Transportation-Airports Division   QC-2003-065   09/18/03   FAA working with Grantee to resolve open issues

Santa Barbara Electric Transportation Institute, CA               QC-2003-069   09/18/03   FTA working with Grantee to resolve open issues

State of West Virginia                                            QC-2003-079   09/23/03   FHWA working with Grantee to resolve open issues

City of Hattiesburg, MS                                           QC-2003-081   09/23/03   FTA working with Grantee to resolve open issues

State of Tennessee                                                QC-2003-084   09/23/03   FHWA working with Grantee to resolve open issues

State of California                                               QC-2003-085   09/23/03   FHWA working with Grantee to resolve open issues

Air Carrier Compensation Claims                                   CR-2003-092   09/30/03   Working with OST to resolve open issues

Allegheny County Airport Authority, PA                            QC-2003-091   09/30/03   FAA working with Grantee to resolve open issues

                                   Cited in Semiannual Report for October 1, 2003–March 31, 2004
Suburban Mobility Authority for Regional Transportation           QC-2004-012   01/20/04   FTA working with Grantee to resolve open issues

State of North Carolina                                           QC-2004-018   01/20/04   FAA working with Grantee to resolve open issues

Chambersburg Transit Authority                                    QC-2004-019   01/20/04   FTA working with Grantee to resolve open issues

Central New York Regional Transportation                          QC-2004-020   01/20/04   FTA working with Grantee to resolve open issues
Authority and Subsidiaries

Virginia Highlands Airport Commission                             QC-2004-023   01/20/04   FAA working with Grantee to resolve open issues

Monitoring of Highway Trust Fund                                  QC-2004-029   01/23/04   Working with FHWA to resolve open issues
FY 2003 Financial Statements

Revenue Diversions at San Francisco International Airport         SC-2004-038   03/31/04   Working with FAA to resolve open issues

Inactive Obligations, FHWA                                        FI-2004-039   03/31/04   Working with FHWA to resolve open issues




                                                                                           C h a r t s      &    Ta b l e s                   53
                                                                    C            H A R T S                                                 &
                                                                                                                                           &

                                                                                 TA B L E S

Application of Audit Project Hours by Operating Administration
April 1 – September 30, 2004           Other 2%
                                                                                                                                                       FHWA 20%

Note: Resources shown for OST include time spent per-
forming audits of the DOT Consolidated Financial
Statements (which includes all Operating
Administrations), the Consolidation of DOT Accounting             FAA 34%
Functions, and other OST activities, including a review
of the FY 2005 Office of the Chief Information Officer
Budget Request for Enhancing Security, E-Government
Services, and Investment.                                                                                                                              NHTSA 2%


Resources shown as “Other” were expended on the                                                                                                        FTA 9%
Federal Motor Carrier Safety Administration, the Surface
Transportation Board, and the St. Lawrence Seaway
Development Corporation and totaled less than 1 per-
cent each.
                                                                 NTSB 2%
                                                                                                                                                       MARAD 2%
                                                                   FRA 5%
                                                                                                                                                       OST 21%
                                                                 RSPA 4%




Required Statements:
   The Inspector General Act requires the Semiannual Report to carry explanations, if during the reporting period, departmental management significantly revised
management decisions stemming from an audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period, departmental man-
agement did not report any significant revisions to management decisions.
   The Act also requires descriptions of any significant decisions that departmental management made regarding an audit with which OIG disagrees. When the
reporting period closed, there were no such significant decisions with which OIG disagreed.




54                    Semiannual Report to Congress
   A w a r d s 

    Secretarial Awards and Recognition
                      Exceptional Public Service Award
Alexis M. Stefani
   For her tireless commitment and effort which has resulted in extraordinary improve-
ments in transportation programs and operations, protection of the traveling public, and
this year alone has resulted in financial benefits to America's taxpayers of nearly $1 billion.

                         Meritorious Executive Award
Mark R. Dayton
   For his outstanding contributions to OIG's audit and evaluation program regarding
Amtrak’s financial condition that assisted the Administration, Congress, DOT, and
Amtrak in making key recommendations regarding a sustainable inter-city passenger
rail system in the United States.

                                     Team Award
Air Traffic Operations Audit Team
   For significant contributions in improving the efficiency and cost-effectiveness of the
Federal Aviation Administration’s Air Traffic Control System.
   Daniel R. Raville, Susan L. Bader, Robert F. Prinzbach, II, Francis E. Danielski,
Angela D. McCallister, Robert A. Romich, Coletta A. Treakle, Christopher S. Frank,
Kimberly Anne Leading, Erik A. Phillips

                     Award for Meritorious Achievement
Joseph W. Comé
  For his exceptional leadership and motivation during audits of motor carrier safety
programs, resulting in critical enhancements to the commercial driver licensing (CDL)
program.
William L. Owens
   For his stellar professionalism and keen investigative acumen in a recent investiga-
tion uncovering details surrounding an allegation that FAA had destroyed an audiotape
that had been made at a New York air traffic facility on September 11, 2001.

                                Award for Excellence
Julia S. Greene
  For her consistent professionalism supporting OIG’s audit division, which include

                                                                                      Awa r d s   55
                           providing guidance on report preparation and handling functions typically performed
                           by more senior staff.

                           Theresa Luong
                              For her outstanding performance supporting OIG’s legal and external affairs pro-
                           grams and her leadership in coordinating the student intern program and designing
                           and improving tracking and communication systems.


                                          Inspector General Awards
                                                               Team Award
                           FHWA Inactive Obligations Audit Team
                              For exemplary work identifying hundreds of millions of dollars in unneeded FHWA
                           obligations which, as a result of their work, are now being reapplied to other necessary
                           highway projects nationwide.
                              Terrence J. Letko, Michael S. Ralph, Leonard F. Meade, Sharon J. Ayers, Clarence S.
                           Fujimoto, Kathleen A. Huycke, LaKarla M. Lindsay, William E. Savage, Linda L. Toms,
                           Jill L. Cottonaro, Keyanna L. Frazier, Edith Ayukegba Makoge, Jelilat A. Ojodu, Stacie
                           A. Seaborne

                           Highway-Rail Grade Crossing Safety Program Audit Team
                              For their exceptional performance in evaluating the Department’s progress to improve
                           grade crossing safety and reduce the number of accidents and fatalities at grade crossings.
                              Michael E. Goldstein, Petra Swartzlander, Brenda R. James, Wendy M. Harris, Harriet
                           E. Lambert, Nathaniel K. Adusei, Josephine Bates, Hillary H. Larson, Mark A. Stiglitz

                           Major Projects Monitoring Team
                              For their outstanding work in creating a new and innovative approach to the way the
                           OIG evaluates the audit potential of DOT’s 75 active and proposed major highway and
                           transit infrastructure projects, valued at about $115 billion.
                              Jim H. Crumpacker, David J. Barnes, Rodolfo E. Pérez, Peter F. Babachicos, Francis
                           H. Ochs, Tyler C. Apffel, William R. Lovett, Michele O. Paratte, Anthony V. Saraco,
                           Alvin Schenkelberg, Kenneth E. Vought, Brett M. Kramer, Paul D. McBride, David R.
                           Uhl, Scott L. Williams
                           MARAD Cargo Preference Audit Team
                              For their review of the Cargo Preference Billing and Payment Process, which result-
                           ed in $305 million being designated into programs that support U.S. flagged Merchant
                           Vessels, America’s farmers and international food assistance.
                              Alvin A. Brown, Thomas K. Lehrich, Leonard F. Meade, Kathleen A. Huycke, Linda
                           L. Toms, Keyanna L. Frazier, Edith Ayukegba Makoge, Stacie A. Seaborne

                           MARAD Title XI Program Audit Team
                             For their excellent work in monitoring and reporting on MARAD’s actions to


56   Semiannual Report to Congress
  A w a r d s 

strengthen the management of the Title XI Loan Guarantee Program.
   Stuart A. Metzger, Mitchell L. Behm, Gary B. Fishbein, Bernard Fishman

Office of Defects Investigation Audit Team
   For their outstanding performance in identifying and reporting on serious problems
with NHTSA’s safety defects information system, ARTEMIS, which prompted senior
DOT and NHTSA officials to take immediate corrective actions.
   Jim H. Crumpacker, David J. Barnes, Thomas K. Lehrich, Michael L. Marshlick,
Michael Siviy, Seth B. Kaufman, Harriet E. Lambert, Frank J. Schutz, Richard Hatcher,
Scott L. Williams
Office of Financial, Administrative, and Information Management
   For their admirable teamwork, dedication and professionalism in the performance of
their myriad duties and responsibilities resulting in enhanced the efficiency JM-30 serv-
ices to the entire OIG.
   Dorothy B. Bowie, Charles G. Hiep, Sharon N. Caboga, Ernestine Anderson, Jackie B.
McNeil, Odessa M. Pyles, Lorena M. Simpson
OIG Cost Management System Team
   For their extraordinary efforts in the successful development and implementation of
OIG’s Cost Management System, which involved integrating information from multi-
ple systems.
   Keith L. Cosper, Samuel Davis, Jr., James F. Heminger, Terrence J. Letko, Suzanne
Murrin, Jerome Persh, James C. Vincent, Jacquelyn R. Weber, Ernest Eigenbrode,
Rosemarie T. Tolson, Sydney H. Verinder, Joanne Wallis, Michael Weisz, Kerry Dudley
OIG-FAA Workers’ Compensation Fraud Investigation Team
   For their highly effective communication and cooperation throughout an investiga-
tion of significant fraud in the workers’ compensation program, which resulted in 3
felony counts of making false statements and 3 felony counts of mail fraud, and
$350,000 in restitution.
   Charles V. Miller, Karl M. Kaprelian, Sadie Perez

Volpe Audit Team
   For their exemplary contributions in advancing DOT’s oversight and management
of the Volpe National Transportation Systems Center.
   Darren L. Murphy, Petra Swartzlander, Robert D. Falter, John M. Hannon, Kathleen
A. Huycke, Raymond Larpenteur, William R. Lovett, Randy D. Rohwer, Kirk A. Gillett,
Deborah A. Kloppenburg, Susan M. Zimmerman




                                                                                 Awa r d s   57
                            White Construction Company Investigative Team
                              For conducting an outstanding contract fraud investigation of White Construction
                            Company, a large highway construction contractor who was ordered to pay over $1.5
                            million in fines and restitution.
                              John W. Long, James St. John, Ronald Lee, Edward Dix, Michael K. Bowen, Kim B. Smith

                            Wisconsin Antitrust Investigation Team
                               This team conducted a thorough investigation of allegations regarding antitrust
                            activities involving two construction companies in Green Bay, Wisconsin.
                               Kent E. Byers, Julie Dingle, Bruce Matzke, Richard Frohling, Matthew Jacobs, Diane
                            Lotko-Baker, Andrew Rosa, David Gorr, Allyn Lepeska, Cari Anne Renlund

                                                 Award for Superior Achievement
                            Daniel R. Raville
                               For his multiple reports and testimonies regarding FAA operations, which have
                            received widespread attention from Congress and the media.
                            Ramon Sanchez, Jr.
                              For his excellent work investigating a commercial truck driver training school which
                            was providing inadequate training and operating a fraudulent financing scheme.

                                               Exceptional Civilian Service Award
                            Gail L. Browne
                              For her expertise and significant contributions in streamlining OIG’s Hotline
                            Complaint Center.
                            Lou E. Dixon
                               For her dedicated leadership during numerous OIG audit efforts to address complex
                            issues involving aviation safety.
                            Theodore L. Doherty, III
                              For his exemplary performance and professionalism leading the Cambridge investi-
                            gations office in numerous contract fraud investigations.

                            Rodolfo E. Pérez
                               For expert engineering analysis and advice on multiple concurrent OIG projects,
                            including the audit of the Finance Plan for the Central Artery/Tunnel Project, the most
                            complex and costly highway construction project in the nation.

                                                Marguerite Christensen Award for
                                                 Excellence in Administration
                            Kelly M. French
                               For significant contributions to customer service, including covering the workload
                            of absent HR specialists and serving as an alter-ego for the OHR Director on many
                            Departmental issues.

58   Semiannual Report to Congress
  A w a r d s 

                         Manager of the Year Award
Matthew E. Hampton
   For invaluable work in the management and oversight of OIG audits of FAA major
acquisitions, as well as providing exceptional insight regarding Congressional commit-
tee hearings.
Terrence J. Letko
   For his extraordinary performance leading several financial and cost accounting
audits which have resulted in savings to DOT, and the identification of inactive obliga-
tions totaling nearly $500 million.

                        Supervisor of the Year Award
Susan L. Bader
   For her exceptional dedication and supervision over a proactive audit of FAA’s actions
to address an anticipated surge in air traffic controller attrition over the next 10 years.
Nathan J. Custer
   For his consistent professionalism and dedication in leading two significant comput-
er security audits over the last year.
Brenda R. James
  For outstanding leadership in taking over the high-profile Audit of the Department’s
Highway-Rail Grade Crossing Safety Program, which was performed at the request of
the ranking minority member of the Senate Committee on Government Affairs.
Michelle W. McGee
  For leading investigations that resulted in nine indictments, eight convictions, six
administrative actions, and monetary recoveries of over $126,000.
Leonard F. Meade
  For playing an integral role in several audits, including the Audit of MARAD’s
Process for Making Cargo Preference Payments, which he completed in 6 weeks and
which led to $305 million in funds put to better use.
Charles A. Ward
   For invaluable work leading several overlapping assignments and multi-disciplinary
teams, including those that investigated the Standard Terminal Automation
Replacement System (STARS) and En Route Modernization effort.




                                                                                  Awa r d s   59
                                                     Employee of the Year Award
                            Mitchell N. Balakit
                               For his unparalleled professionalism and dedication in the issuance of audit reports
                            relating to FAA’s En Route Air Traffic Control Computer System Security.
                            Laurence G. Burke
                              For his significant contributions to the success of two major audits, the Tren Urbano
                            Rail Transit Project and the Audit of the 2003 Finance Plan for the Central
                            Artery/Tunnel Project.
                            Jeffrey W. Germann
                               For his technical expertise in developing a systematic program for the backup and
                            recovery of all OIG data files.
                            Stephen Gruner
                               For outstanding expertise and dedication to OIG work regarding rail safety, includ-
                            ing supporting the investigative staff regarding allegations concerning rail safety
                            enforcement activity.
                            David J. Hoefler
                               For his exceptional leadership in two investigations involving fraud which posed a
                            threat to highway safety.
                            Stephen L. Jones
                               For his exemplary service in the oversight of pipeline safety and aviation infrastruc-
                            ture audits, at a level normally performed by project managers.
                            Robert Y. Lee
                               For his admirable dedication in developing sections of the OIG’s Audit of Progress
                            in Implementing Recommendations for Improving Pipeline Safety.
                            Karen A. Muller
                               For her highly skilled technical support to critical human resources programs and oper-
                            ations, including coverage for awards and human resources automation.
                            Lonnie G. Robertson
                              For his outstanding investigative work in the areas of hazardous materials and com-
                            mercial driver’s license fraud.
                            Robert A. Romich
                               For significant contributions to a number of high-profile FAA audits, with one
                            resulting in a request for OIG testimony before the House Transportation and
                            Infrastructure Subcommittee on Aviation.
                            Kevin C. Shirley
                               For his extraordinary investigative skill and contributions toward OIG’s motor carri-
                            er initiative through his participation on two investigations under Operation Safe Road.



60   Semiannual Report to Congress
  A w a r d s 

Patricia K. Stevens
   For consistently providing invaluable support to OIG management and demon-
strating significant flexibility in a very fast paced environment.
Gerard H. Tucker, Jr.
   For his superior investigative efforts which have led to five indictments and five con-
victions in three separate cases, including one investigation that led to the indictment
of nine individuals for their part in producing more than $10 million in fictitious
money orders.

R. Curt Vaughan
   For his exceptional skill in conducting the most sensitive and complex investigations,
including those requested by Congress.
Paul W. Kimbrough, Sr.
  Award for Public and Community Service

Paul D. McBride
   For his unparalleled dedication as a volunteer for international nonprofit organiza-
tion World Computer Exchange and Peace Corps Relations Manager.

            Administrative Professional of the Year Award
Emma Hernandez
   For consistently providing outstanding administrative support to OIG’s audit and
investigative staffs in New York, including the recruitment of a volunteer student intern.
Joanne M. Pittman
  For handling an extraordinarily heavy workload in taking on the assignments of
another staff member, as well as providing support to the HR Director.
Fannie C. Robinson
   For invaluable assistance to Office of Assistant Inspector General for Investigations
San Francisco Regional Office investigators toward obtaining 47 indictments, 26 con-
victions, and millions of dollars in monetary recoveries, as well as successfully manag-
ing more than 100 hotline and complaint case files.

Constance C. Wiley
   For her high-quality administrative support to the entire Aviation audit staff, includ-
ing coordinating with the Atlanta field staff, and overseeing all purchasing,
Transportation Inspector General Reporting System, and file maintenance activities.




                                                                                  Awa r d s   61
                                                         New Employee Award
                            Brian J. Frist
                               For his substantial contributions to the Audit of DOT Inactive Obligations, in which
                            he convinced FAA finance officials to de-obligate approximately $20 million in unnec-
                            essary funds.
                            Bradley K. Kistler
                               For outstanding work on three major audits — Delphi Computer System Security
                            and Controls, DOT’s Information Security Program, and the Office of the Chief
                            Information Officer’s Budget Submission.
                            Debra L. Mayer
                              For providing critical economic research, analyses, and expertise on several audit
                            projects, including the Review of Federally Designated High Speed Rail Corridors and
                            FTA’s New Starts program.
                            Dennis M. Ocampo
                               For his exceptional initiative and professionalism while conducting highly sensitive
                            investigations for the OIG.


                                     President’s Council on Integrity
                                         And Efficiency Awards
                                                     Alexander Hamilton Award
                            Air Traffic Operations Audit Team
                               For significant contributions in improving the efficiency and cost effectiveness of the
                            operation of FAA’s Air Traffic Control System.
                               Daniel R. Raville, Susan L. Bader, Robert F. Prinzbach, II, Francis E. Danielski,
                            Angela D. McCallister, Robert A. Romich, Coletta A. Treakle, Christopher S. Frank,
                            Kimberly Anne Leading, Erik A. Phillips

                                                   Award for Excellence — Audits
                            Motor Carrier Safety Status Measurement System Audit Team
                               For their expert and innovative work in improving the reliability of the Motor
                            Carrier Safety Status Measurement System, which is used to target unsafe motor
                            carriers.
                               Barbara M. Cobble, Joseph W. Comé, Petra Swartzlander, Dr. Francis M. Ponti, Janice
                            S. Alger, James W. Bess, Christopher T. Brothers, David W. Brown, John M. Hannon,
                            Harriet E. Lambert, William E. Savage, Alvin B. Schenkelberg, Constance B. Hardy,
                            Richard Hatcher, Calvin L. Moore, II, Wayne L. White




62   Semiannual Report to Congress
  A w a r d s 

Pipeline Safety Audit Team
   For their exemplary dedication and notable contributions to pipeline safety and
security issues in developing a report presented to the Senate Committee on
Commerce.
   Scott K. Macey, Petra Swartzlander, Greggory S. Bond, Kathleen A. Huycke, Stephen
L. Jones, Kim P. Tieu, Earl G. Kindley, Robert Y. Lee, Susan M. Zimmerman

                 Award for Excellence — Investigations
Leigh R. Hinson
   For outstanding skill and dedication during a fraud investigation, which resulted in
a conviction and over $8.7 million in fines and restitution.

             Award for Excellence — Multiple Disciplines
Tulsa Airport Review Team
   For exceptional teamwork and performance in investigating the management and
operations of Tulsa airport in response to a request from the Chairman of the U.S.
Senate Committee on Environment and Public Works.
   Lou E. Dixon, Joseph M. Zschiesche, David J. Barnes, Thomas K. Lehrich, Mary E.
Hanson, Seth B. Kaufman, Ann M. Kessel, James D. Madden, Charles V. Miller, Kenneth
A. Finley, David Jensen, Tom Kucera




                                                                               Awa r d s   63
                                                            m i s s i o n, 

                                                       o r g a n i z a t i o n, 

                                                         & contacts 


                                                T
                                                          he Office of Inspector General for the Department of Transportation
                                                          was created by Congress through the Inspector General Act of 1978
                                                          (Public Law 95–452). The act sets several goals for OIG:

                                                ■	   To conduct or supervise objective audits and investigations of DOT’s pro-
                                                     grams and operations;

                                                ■	   To promote economy, effectiveness, and efficiency within DOT;

                                                ■	   To prevent and detect fraud, waste, and abuse in the Department’s programs;

                                                ■	   To review existing and proposed laws or regulations affecting the Department
                                                     and make recommendations about them;

                                                ■	   To keep the Secretary of Transportation and Congress fully informed about
                                                     problems in departmental programs and operations.

                                                                                                OIG is divided into two major
                                                                                             units and five support units. The
  OIG FY 2004 Program-Level Resources 	                                                      major units are the Office of the
  Total: $63,379,118                                                                         Principal Assistant Inspector General
                                                                                             for Auditing and Evaluation and the
     Advisory and Assistance Contracts                                    Other $4,749,118
                                                                                             Office of Assistant Inspector General
                          $4,000,000
                                                                                             for Investigations. Each has headquar-
                                                                                             ters staff and field staff. The support
             Rent to GSA $3,800,000
                                                                                             units are the Office of Legal, Legis-
                  Travel $2,630,000
                                                                                             lative, and External Affairs; the Office
                                                                                             of Technical Resource Management;
                                                                                             the Office of Human Resources; the
     Working Capital Fund $2,200,000
                                                                                             Office of Financial, Administrative,
                                                                                             and Information Management; and
                                                                                             the Office of Quality Assurance
 Personnel Compensation and Benefits
                      $46,000,000
                                                                                             Reviews/Internal Affairs.




64              Semiannual Report to Congress
                                                                                                                              Inspector General




                                                                                                                          Deputy Inspector General




                                                                                        Assistant IG for
                                                             Assistant IG for                                              Principal Assistant IG for            Quality Assurance Reviews & Internal Affairs
                                                                                      Legal, Legislative, &
                                                              Investigations                                                Auditing & Evaluation
                                                                                        External Affairs                                                              Technical Resource Management
                                                                                                                                                                              Human Resources
                                                                                                                                                                         Financial, Administrative, &
                                                             Deputy AIG for
                                                             Investigations                                                                                               Information Management




                                                                                 Assistant IG for                 Assistant IG for            Assistant IG for         Assistant IG for
                                                                                Aviation & Special            Financial & Information       Surface & Maritime      Competition & Economic
                                                                                 Program Audits                  Technology Audits               Programs                  Analysis




                                                                                  Deputy AIG for               Deputy AIG for                 Deputy AIG for
                                                                                Aviation & Special        Information Technology            Surface & Maritime




M i s s i o n , O r g a n i z a t i o n , & C o n ta c t s
                                                                                 Program Audits             & Computer Security                  Programs




       65
                                                                    Contacts

                                               Inspector General
                                               Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1959

                                               Deputy Inspector General
                                               Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6767

                                               Assistant Inspector General for Investigations
                                               Charles H. Lee, Jr. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1967

                                               Deputy Assistant Inspector General for Investigations
                                               Rick Beitel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1972

                                               Assistant Inspector General for Legal, Legislative, and External Affairs
                                               Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–8751

                                               Assistant Inspector General for Aviation and Special Program Audits
                                               David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0500

                                               Deputy Assistant Inspector General for Aviation and Special Program Audits
                                               Robin K. Hunt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 744–0420

                                               Assistant Inspector General for Financial and Information Technology Audits
                                               Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0687

                                               Deputy Assistant Inspector General for Information Technology and Computer Security
                                               Rebecca C. Leng . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1488

                                               Deputy Assistant Inspector General for Surface and Maritime Programs
                                               Kurt Hyde . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6238

                                               Assistant Inspector General for Competition and Economic Analysis
                                               Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–9970

                                               Chief Counsel
                                               Thomas Lehrich . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–2923

                                               Communications Director
                                               David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6312

                                               Director for Audit Planning, Training, and Technical Support
                                               Michelle C. Hill . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0477

                                               Chief Technology Officer
                                               James Heminger . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1498

Hotline to report fraud, waste, and abuse:     Director of Human Resources
                                               Vivian Jarcho . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1440
     phone:     1–800–424–9071
        fax:    202–366–7749                   Director of Financial, Administrative, and Information Management
                                               Jacquelyn R. Weber . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1495
    e–mail:     hotline@oig.dot.gov
OIG website:    http://www.oig.dot.gov         Director of Quality Assurance Reviews and Internal Affairs
                                               Richard Kaplan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1504

66             Semiannual Report to Congress
Abbreviations

AGA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Association of Government Accountants               IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Information Technology

AIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Assistant Inspector General     MARAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Maritime Administration

AIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Airport Improvement Program         MCMIS . . . . . . . . . . . . . . . . . . . . . . . .Motor Carrier Management Information System

ARTEMIS . . . . .Advanced Retrieval (Tire, Equipment, Motor Vehicle) Information System                                MCSIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Motor Carrier Safety Improvement Act

ATOP . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technology and Oceanic Procedures                     NAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Airspace System

ATOS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Transportation Oversight System            NASA . . . . . . . . . . . . . . . . . . . . . . . . . .National Aeronautics and Space Administration

BATF . . . . . . . . . . . . . . . . . . . . . .Bureau of Alcohol, Tobacco, Firearms and Explosives                    NHTSA . . . . . . . . . . . . . . . . . . .National Highway Transportation Safety Administration

BTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Transportation Statistics         NTSB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Transportation Safety Board

CDL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commercial Driver's License       OA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Operating Administration

CID . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Criminal Investigations Division      OCIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Chief Information Officer

CIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Information Officer   OHR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Human Resources

CPDLC . . . . . . . . . . . . . . . . . . . . . . . . . . . .Controller-Pilot Data Link Communications                 OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General

DAIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Deputy Assistant Inspector General           OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget

DBE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Disadvantaged Business Enterprise           OMP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .O'Hare Modernization Program

DCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Defense Criminal Investigative Services            OPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Pipeline Safety

DHS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Homeland Security             OSHA . . . . . . . . . . . . . . . . . . . . . . . . . .Occupational Safety and Health Administration

DOD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Defense       OSI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Special Investigations

DOL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Labor     OST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary of Transportation

DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Transportation        PCIE . . . . . . . . . . . . . . . . . . . . . . . . . . . .President's Council on Integrity and Efficiency

EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Environmental Protection Agency         PHMSA . . . . . . . . . . . . . . . . . . .Pipeline and Hazardous Material Safety Administration

ERAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .En Route Automation Modernization              RSPA . . . . . . . . . . . . . . . . . . . . . . . . . .Research and Special Programs Administration

ETMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Enhanced Traffic Management System                 SafeStat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Status Measurement System

FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Aviation Administration       SLSDC . . . . . . . . . . . . . . . . . . . . . . . .St. Lawrence Seaway Development Corporation

FAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Financial Audit Manual    SPAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Performance Analysis System
FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Bureau of Investigation     STARS . . . . . . . . . . . . . . . . . . . . .Standard Terminal Automation Replacement System

FHWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Highway Administration           STB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Surface Transportation Board

FMCSA . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Motor Carrier Safety Administration                 SUV . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Sport Utility Vehicle

FMIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Fiscal Management Information System               TEA-21 . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Equity Act for the 21st Century

FRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Railroad Administration       TIGR . . . . . . . . . . . . . . . . . . . . . . .Transportation Inspector General Reporting System

FTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Transit Administration      TRACON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Terminal Radar Approach Control

GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Accountability Office       TREAD . . . . . . .Transportation Recall Enhancement, Accountability, and Documentation

GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration         TSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Security Administration

HAZMAT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Hazardous Material       USAF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .United States Air Force

ICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Immigration and Customs Enforcement               USDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .United States Department of Agriculture

IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Internal Revenue Service    VE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Value Engineering



                                                                                                                                                                                                                                           67
U.S. Department of Transportation
        Office of Inspector General
         400 Seventh Street, S.W.
        Washington, D.C. 20590
